<html>
<title> - THE IMPACT OF THE DRUG TRADE ON BORDER SECURITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





            THE IMPACT OF THE DRUG TRADE ON BORDER SECURITY

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 29, 2004

                               __________

                           Serial No. 108-250

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
97-998                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
JOHN R. CARTER, Texas                    Maryland
MARSHA BLACKBURN, Tennessee          ELEANOR HOLMES NORTON, District of 
PATRICK J. TIBERI, Ohio                  Columbia
                                     ------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
        Nicholas Coleman, Professional Staff Member and Counsel
                           Malia Holst, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 29, 2004....................................     1
Statement of:
    Barker, Luis E., Chief Patrol Agent, El Paso Sector Border 
      Patrol, U.S. Customs and Border Protection, Department of 
      Homeland Security; Kenneth Cates, Associate Special Agent 
      in Charge, El Paso, TX, Immigration and Customs 
      Enforcement, Department of Homeland Security; Errol J. 
      Chavez, Director, New Mexico High Intensity Drug 
      Trafficking Area; Luis Garcia, Director of Field 
      Operations, U.S. Customs and Border Protection, Department 
      of Homeland Security; Sandalio Gonzalez, Special Agent in 
      Charge, El Paso Field Division, Drug Enforcement 
      Administration, U.S. Department of Justice; and Steve 
      Swingle, Acting Aviation Group Supervisor, Albuquerque Air 
      Branch Office of Air and Marine Operations, Immigration and 
      Customs Enforcement, Department of Homeland Security.......    14
    Williams, Captain Richard, commander, District 4 (Las 
      Cruces), New Mexico State Police; and Sheriff Juan 
      Hernandez, Dona Ana County Sheriff's Office................    77
Letters, statements, etc., submitted for the record by:
    Barker, Luis E., Chief Patrol Agent, El Paso Sector Border 
      Patrol, U.S. Customs and Border Protection, Department of 
      Homeland Security, prepared statement of...................    17
    Cates, Kenneth, Associate Special Agent in Charge, El Paso, 
      TX, Immigration and Customs Enforcement, Department of 
      Homeland Security, prepared statement of...................    24
    Chavez, Errol J., Director, New Mexico High Intensity Drug 
      Trafficking Area, prepared statement of....................    32
    Garcia, Luis, Director of Field Operations, U.S. Customs and 
      Border Protection, Department of Homeland Security, 
      prepared statement of......................................    41
    Gonzalez, Sandalio, Special Agent in Charge, El Paso Field 
      Division, Drug Enforcement Administration, U.S. Department 
      of Justice, prepared statement of..........................    48
    Pearce, Hon. Stevan, a Representative in Congress from the 
      State of New Mexico, prepared statement of.................     9
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Swingle, Steve, Acting Aviation Group Supervisor, Albuquerque 
      Air Branch Office of Air and Marine Operations, Immigration 
      and Customs Enforcement, Department of Homeland Security, 
      prepared statement of......................................    55
    Williams, Captain Richard, commander, District 4 (Las 
      Cruces), New Mexico State Police, prepared statement of....    80

 
            THE IMPACT OF THE DRUG TRADE ON BORDER SECURITY

                              ----------                              


                         TUESDAY, JUNE 29, 2004

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Las Cruces, NM.
    The subcommittee met, pursuant to notice, at 1:07 p.m., at 
the Las Cruces City Council Chambers, 200 North Church Street, 
Las Cruces, New Mexico, Hon. Mark E. Souder (chairman of the 
subcommittee) presiding.
    Present: Representative Souder.
    Also present: Representative Pearce.
    Staff present: Nicholas Coleman, professional staff member; 
David Thomasson, congressional fellow; and Malia Holst, clerk.
    Mr. Souder. Subcommittee will now come to order.
    Good afternoon and thank you all for coming. I'd first like 
to thank Congressman Steve Pearce for inviting us to come back 
to this region to continue studying the problem of drug 
smuggling along the Texas and New Mexico border. I've 
appreciated Congressman Pearce's leadership and support on drug 
issues at the House of Representatives, and I look forward to 
meeting with him in the months ahead.
    Since the summer of 2001, this subcommittee has been making 
a comprehensive study of law enforcement at our Nation's 
borders, including a field hearing last April in El Paso. There 
have been some major developments since that hearing in how our 
Federal Government approaches the drug trafficking threat, most 
notably the reorganization of the former Customs Service and 
the Immigration and Naturalization Service within the new 
Department of Homeland Security.
    The Southwest Border remains the primary conduit of illegal 
drugs into our country, with up to three-quarters of narcotics 
coming across it. The Las Cruces-El Paso area in particular has 
been the site of some of the worst drug smuggling activity in 
the country for decades, and the problem is not going away. 
Drug seizures here have risen significantly during this decade, 
even as they fell in other parts of the country. It seems that 
almost every week, law enforcement agents discover huge 
quantities of drugs in this area, especially at the El Paso 
port of entry. Drug smuggling and the related crime have taken 
a toll on the environment and the quality of life for local 
residents, besides presenting a threat to the entire Nation.
    Because of the very real threat posed by drug smuggling 
here and everywhere else in the Nation, Congress made stopping 
that smuggling one of the primary missions of the new 
Department of Homeland Security. Taken together, the Border 
Patrol agents, the former INS and Customs inspectors, the 
Customs special agents, and the former Customs pilots 
represented America's front line against drug traffickers. 
Without them, we will have little or no defense against 
smugglers. Thus, it is vitally important that these agencies 
remained focused on the narcotics threat.
    Today's hearing is intended to focus on how the various 
Federal agencies with counternarcotics responsibility--
including the Customs and Border Protection and Immigration and 
Customs Enforcement divisions of the Department of Homeland 
Security, and the Drug Enforcement Administration--are meeting 
the problem of illegal drug smuggling. In particular, we need 
to closely examine how well these agencies are coordinating 
their efforts with each other, and with their State and local 
law enforcement partners. It is my hope that at this hearing we 
will learn what steps DHS, DEA and other agencies are taking to 
improve coordination and cooperation in counternarcotics 
efforts. I also hope to hear about what new initiatives our 
Federal agencies have put in place to stay ahead of the 
traffickers. President Bush has made reducing drug trafficking 
and abuse of our country a top priority for his administration, 
and DHS and its partners are vital to achieving that goal over 
the long term.
    These issues are all very important and extremely urgent, 
and we look forward to hearing from our witnesses today about 
ways to address them. I again thank Congressman Pearce for 
joining us today, and for the assistance that he and his staff 
have provided to us in setting up this hearing. We also welcome 
six representatives of the Federal agencies primarily 
responsible for dealing with drug smuggling in this region. We 
welcome Mr. Luis Barker, Chief Patrol Agent of the US Border 
Patrol's El Paso's Sector; Mr. Kenneth Cates, Associate Special 
Agent in Charge of ICE's El Paso Division; Mr. Errol Chavez, 
Regional Director of the New Mexico Regional Partnership of the 
Southwest Border High Intensity Drug Trafficking Area, a 
program with the Office of the National Drug Control Policy, 
i.e. the drug czar, intended to foster cooperation between 
Federal, State and local law enforcement; Mr. Luis Garcia, 
Director of Field Operations at CBP's El Paso Field Office; Mr. 
Sandalio Gonzalez, Special Agent in Charge of the Drug 
Enforcement Administration's El Paso Division Office; and Mr. 
Steve Swingle, Acting Aviation Group Supervisor of the 
Albuquerque Air Branch of the ICE Office of Air and Marine 
Operations.
    When examining border policies we must of course also seek 
the input of representatives of the State and local agencies 
who also have to deal with the border drug threat. We welcome 
the Honorable Louise Peterson, Hidalgo County Commissioner; 
Captain Richard Williams, Commander of District 4 of the New 
Mexico State Police; Sheriff Robert E. Hall of Hidalgo County; 
and Sheriff Juan
Hernandez of Dona Ana County. We thank everyone for taking the 
time this afternoon to join us for this important hearing.
    With that, I'd like to yield to my friend and colleague, 
Congressman Pearce.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T7998.001
    
    [GRAPHIC] [TIFF OMITTED] T7998.002
    
    Mr. Pearce. Good afternoon, Chairman Souder. I appreciate 
the subcommittee's interest in holding a public hearing in 
southern New Mexico about its border security problems here in 
Las Cruces, New Mexico, the Second Congressional District, 
which I represent. Your willingness to travel the long distance 
to the southern New Mexico border and assess its critical 
security situation demonstrates your understanding of the 
pressing challenges this area faces, as well as your leadership 
in seeking solutions to these problems. I'm also pleased the 
committee will hear from some of our Nation's finest, hardest 
working Federal, State, and local border law enforcement 
officials and community leaders.
    Mr. Chairman, America's borders must provide a strong 
defense against all illegal activity including the trade of 
illegal drugs, the flow of illegal immigration, diseases and 
other forms of contraband. This country's current and future 
prosperity and security depend on a border that operates 
securely and effectively.
    But at the same time that we establish security we must 
maintain a friendly border, one which allows commerce to travel 
freely with its legitimate commerce, one which recognizes that 
families have family members on both sides of the border and 
have desires and needs to be on both sides of the border 
frequently.
    Much of that prosperity is shaped and built in large 
measure by international commerce, tourism and immigration. 
Immigration originates right here in the southern part of our 
district. Commerce and tourism add to our economy's vitality. 
Total annual trade with Mexico more than doubled through the 
1990's to reach more than $248 million. In fact, Mexico has now 
surpassed Japan as a U.S. trading partner. This commerce is 
critical to business in Southern New Mexico. Moreover, 
immigration continues to keep our country demographically young 
and enriches our culture. That is why it's crucial trying to 
balance making our borders impermeable to activity that 
subverts our laws with accessibility for legal activity that 
positively contributes to the American economy and society.
    President Bush's leadership in consolidating our border law 
enforcement agencies into the Department of Homeland Security 
was the first step in reaching this very important balance. 
Since the Border Patrol functions of the Immigration and 
Naturalization Service have been absorbed into the Department 
of Homeland Security's Bureau of Customs and Border Protection, 
our Nation's borders now have a 40,000-person bureau focusing 
exclusively on security at and in between ports of entry, a 
standardized inspection process, and a unified chain of command 
between existing operations.
    Also, the incorporation of the investigative and 
intelligence resources of the U.S. Customs Service, the 
Immigration & Naturalization Service, the Federal Protective 
Service into the Department of Homeland Security's Immigration 
and Customs Enforcement Bureau unifies more than 20,000 
employees who focus on the enforcement of immigration and 
customs laws within the United States.
    The U.S. Congress has also risen to this challenge by 
ensuring that the new Department has the tools it needs to 
operate secure and efficient borders. The Fiscal Year 2005 
Homeland Security Appropriations Act, which funds the Customs 
and Border Protection, provides $9.6 billion for border 
protection and related activities, an increase of $630 million 
over fiscal year 2004 enacted levels. $74 million has been 
allocated for border security technology, including 
surveillance and unmanned aerial vehicles.
    Notwithstanding these efforts, there remains a significant 
need for greater attention and additional resources to the 
Mexico-New Mexico border.
    As Customs and Border Protection augments its efforts 
through additional money, agents and technology to the more 
high-profile southern Border States such as California, Arizona 
and Texas, New Mexico's border law enforcement agencies are 
left understaffed and under-prepared for the increased drug 
trafficking and human smuggling resulting from the crackdown in 
other States.
    In 1994, INS announced a new Southern Border Strategy to 
combat activity by placing thousands of new Border Patrol 
agents in key high-migration centers. The problem was that the 
focus was placed on major population centers, so activity 
shifted away from the large cities to the rural, remote areas 
like what we see here in Southern New Mexico.
    Today, after $19 billion spent for border security and 
technology in the last 2 years, DHS has increased its emphasis 
on Arizona border security through its Arizona Border Control 
Initiative. This Initiative invests $10 million in the Tucson 
Customs and Border Protection region to hire more border 
agents, improve technology and provide unmanned aerial 
vehicles, the UAVs. As a result, more than 2,000 Border Patrol 
agents will be assigned to that region. This makes an average 
of six agents for each mile of border in Arizona.
    However, with only 425 agents in New Mexico, there are 
fewer than 2 agents per mile of border. Yet, increasing 
pressure against illegal activity on the Arizona border will 
result in increasing drug and human trafficking spilling over 
into New Mexico. In fiscal year 2004, that is just since 
October, agents in Lordsburg, New Mexico have made 141 percent 
more apprehensions than all of last year. Agents in Deming 
report a 15 percent increase. Border Patrol agents in the El 
Paso sector, which includes all of Southern New Mexico, have 
already confiscated 130,000 pounds of marijuana since October 
of last year.
    The influx of illegal activity spurred by the stratified 
allocation of border security resources is not only creating a 
strain on Federal law enforcement agencies in New Mexico, but 
on local communities and the Federal judiciary system here in 
New Mexico as well. Our local governments' budgets are 
consistently strained by the disproportionate costs related to 
the incarceration of illegal immigrants held for drug and human 
smuggling. While 17 New Mexico counties have recently been 
awarded $679,000 from the Department of Justice's State 
Criminal Alien Assistance Program, the funds do not cover the 
entire cost of incarcerating these individuals.
    Furthermore, illegal immigration and narcotics cases are 
almost exclusively driving the increase in caseload for the 
Federal court here in Las Cruces, which already has the fourth 
highest criminal caseload per judge in the Nation. In fact, 
illegal immigration prosecutions currently account for 85 
percent of all criminal cases in the Las Cruces District. 
Accordingly, I believe a proper examination of the impact of 
illegal activity on border security in Southern New Mexico 
should include the urgency for additional Federal judicial 
resources as well.
    In conclusion, Mr. Chairman, I'm hopeful that the unique, 
pressing challenges to New Mexico's southern border security 
presented to the subcommittee today will encourage much more 
focused attention and a greater commitment of Federal resources 
to this region so that New Mexico's southern border is an equal 
partner in contributing to America's security and prosperity.
    In short, we must succeed in creating a border that 
interdicts people engaged in illegal activity, while the same 
border must be friendly to the people who have legitimate 
reasons for coming and crossing to either side of the border--
to visit family, to conduct commerce, or just engage in tourist 
activities.
    Mr. Chairman, I thank you again for bringing this valuable 
subcommittee into New Mexico to look at this increasingly 
important problem for us.
    [The prepared statement of Mr. Pearce follows:]

    [GRAPHIC] [TIFF OMITTED] T7998.003
    
    [GRAPHIC] [TIFF OMITTED] T7998.004
    
    [GRAPHIC] [TIFF OMITTED] T7998.005
    
    [GRAPHIC] [TIFF OMITTED] T7998.006
    
    Mr. Souder. Thank you very much.
    For those of you who may not be familiar with this 
particular subcommittee and our mission, we're part of the 
Committee on Government Reform, which is historically called 
the Government Oversight Committee. I chair on the Subcommittee 
on Criminal Justice, Drug Policy and Human Resources and it has 
multiple missions, but historically spends somewhere between 50 
and 65 percent of its time particularly on the drug problem, 
because 23 different committees in Congress have overlapping 
jurisdiction. And this was an attempt to consolidate in one 
committee the overall question of how you tackle the drug 
issue.
    Therefore, increasingly, in addition to oversight, we've 
been given legislative jurisdiction and authorization 
jurisdiction. The biggest example is the drug czar's office at 
the Office of National Drug Control Policy, which would be the 
highest jurisdiction. Also, a national ad campaign and 
increasingly smaller bills where, rather than multiple 
jurisdiction, committees are putting it into one committee.
    So we're unusual in the sense we're authorizing in the 
oversight, and that we've done a variety of different types of 
hearings, many very high-profile hearings, during the last 
administration, and even in this administration, which you'll 
be seeing more of in the next few weeks on Iraq, but also on 
Waco and everything from the Travel Office and Whitewater 
investigations.
    Therefore, it's the tradition, and always has been of this 
committee, to swear in all witnesses. The truth is, we have had 
prosecutions in this committee for perjury because this is the 
way we track what the government is doing, so that's the reason 
you'll see a little bit different process in how the committee 
works.
    So first let me take care of two procedural matters. I ask 
unanimous consent that all Members have 5 legislative days to 
submit written statements and questions and answers to 
questions provided also be included in the record. Without 
objection, so ordered. And second, I ask unanimous consent that 
all Members present be permitted to participate in the hearing. 
Without objection it is so ordered.
    The first panel is composed of six representatives of the 
Federal Government. And it's the tradition of this committee, 
since it's a Federal oversight committee, to always have the 
Federal witnesses in the first panel: Mr. Barker of the Border 
Patrol; Mr. Cates of ICE; Mr. Chavez of HIDTA; Mr. Garcia of 
CBP; Mr. Gonzalez of DEA; and Mr. Swingle of AMO.
    It's our standard practice to ask witnesses to testify 
under oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    We thank you all and your agencies for your work, and we 
would like, when you start, if you could state your name and 
spell it for the public record, the court reporter. And we'll 
start with Mr. Barker.

   STATEMENTS OF LUIS E. BARKER, CHIEF PATROL AGENT, EL PASO 
   SECTOR BORDER PATROL, U.S. CUSTOMS AND BORDER PROTECTION, 
   DEPARTMENT OF HOMELAND SECURITY; KENNETH CATES, ASSOCIATE 
 SPECIAL AGENT IN CHARGE, EL PASO, TX, IMMIGRATION AND CUSTOMS 
ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY; ERROL J. CHAVEZ, 
DIRECTOR, NEW MEXICO HIGH INTENSITY DRUG TRAFFICKING AREA; LUIS 
 GARCIA, DIRECTOR OF FIELD OPERATIONS, U.S. CUSTOMS AND BORDER 
PROTECTION, DEPARTMENT OF HOMELAND SECURITY; SANDALIO GONZALEZ, 
     SPECIAL AGENT IN CHARGE, EL PASO FIELD DIVISION, DRUG 
  ENFORCEMENT ADMINISTRATION, U.S. DEPARTMENT OF JUSTICE; AND 
 STEVE SWINGLE, ACTING AVIATION GROUP SUPERVISOR, ALBUQUERQUE 
AIR BRANCH OFFICE OF AIR AND MARINE OPERATIONS, IMMIGRATION AND 
      CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY

    Mr. Barker. Thank you, Mr. Chairman. My name is Luis E. 
Barker, B-A-R-K-E-R, first name L-U-I-S, Luis.
    Mr. Chairman, distinguished committee members, I am pleased 
for the opportunity to appear before you today to discuss the 
El Paso Border Patrol Sector's law enforcement initiatives to 
secure the U.S. border in New Mexico and West Texas, with 
regards to the extent and the impact of narcotics trafficking, 
interdiction and our interaction with all the Federal, State 
and local agencies to address this concern. Again, my name is 
Luis Barker, I'm the Chief Patrol Agent for the El Paso Sector 
of the U.S. Border Patrol, a branch of the U.S. Customs and 
Border Protection within the Department of Homeland Security.
    Let me begin by thanking you and your colleagues, on behalf 
of all CBP, for your continued support, as we pursue our 
primary mission of preventing the entry of terrorists and their 
weapons of terror; and enforce laws that protect America's 
homeland by the detection, interdiction and apprehension of 
those who attempt to illegally enter or smuggle persons or 
contraband across our Nation's sovereign borders. The 
challenges for securing our borders and protecting our homeland 
are many and ever changing. CBP's goal is to increase our 
operational effectiveness to the point where the likelihood of 
apprehension is high enough to be an effective deterrent. We 
continue to improve our capabilities by adding or shifting 
resources as required. Although the strategy of deterrence was 
developed with immigration issues in mind, it has equal effect 
on narcotics smuggling.
    The El Paso Sector is responsible for securing the 289 
miles of border between the ports of entry in Texas and New 
Mexico. To accomplish this, we have established four Border 
Patrol stations in the two westernmost counties in Texas, and 
eight stations in the State of New Mexico. This sector's vast 
area of operations is divided into three main corridors: The 
Deming Corridor, the El Paso Corridor, and the Fabens Corridor. 
Narcotics smuggling is active in all of these corridors.
    The border area we secure is unique in that we must control 
both land borders across New Mexico, and a water border defined 
by the Rio Grande River. In many areas only a barbed wire 
fence, if anything, marks the border. As a deterrent, we 
continue to place lighting, fencing, and vehicle barriers in 
many areas such as Sunland Park, New Mexico and Deming. This 
has proven to be effective in controlling illegal entries, 
especially of vehicles carrying contraband, to include 
narcotics.
    Although physical barriers and lighting assist in border 
control, additional technology has proven to be a great 
deterrent and a ``force multiplier'' for our Agents. Remote 
Video Surveillance Systems, sensors, radiation pagers, night 
vision equipment, density meters, and other tools are a great 
asset. In addition, better data on criminals, or wanted 
subjects assists us in locating subjects and in determining 
their true identity.
    Large population centers on both sides of the border helps 
make the El Paso area ideal as a major hub for smuggling of 
people, narcotics and other contraband. Highways, hotels and 
other infrastructure attract both legitimate trade and travel, 
and unfortunately those adept in illicit activities. To 
maintain control of the border, we use both forward 
deployment--that is patrolling immediate border--and secondary 
operations such as traffic checkpoints and task force 
initiatives with other agencies. We have agents that liaison 
with the DEA; the FBI; Joint Terrorism Task Force; the High 
Intensity Drug Trafficking Area, HIDTA office; U.S. Marshal's 
Task Force; U.S. Attorney's Office; and State and local law 
enforcement, including the Sheriff's Office.
    Furthermore, we work daily with officials from the Mexican 
Government through our Mexican liaison Unit to address our 
concerns of the border. We have been very successful in 
identifying, apprehending and prosecuting law violators through 
these efforts.
    We continue to employ every available means at our disposal 
to combat illegal activity which occurs in this area. Besides 
coverage on the border, we maintain six permanent traffic 
checkpoints, five of which are in the State of New Mexico. 
Checkpoint operations are an essential component of our 
enforcement strategy, and from fiscal year 2002 to the present 
they have accounted for 18 percent of our narcotics seizures, 
and virtually all seizures involving cocaine and heroin.
    The purpose of these checkpoints is to detect and 
interdict, terrorists, undocumented immigrants, contraband and 
weapons of mass effect. As a result of these checkpoint 
operations, we frequently encounter violators of law and 
persons wanted for crimes such as narcotics smuggling, murder, 
and assault. Improvements in information access and the 
expansion of the Integrated Automated Fingerprint 
Identification System, or AAFES have assisted us greatly in 
this regard. With these resources, we have identified 2,613 
criminal aliens in fiscal year 2004, some 300 of which were 
wanted for various crimes ranging from assault to weapons 
violations.
    Over the past three fiscal years, 2002, 2003 and 2004, we 
have interdicted large quantities of narcotics. Historically, 
this has been the norm and we anticipate that this will 
continue, as efforts to dismantle cartels such as the Carrillo-
Fuentes cartel continue. The principal narcotic seized has been 
marijuana. Since October 2003, agents have seized approximately 
156,777 pounds of marijuana, 511,000 pounds since fiscal year 
2002. We have also seized approximately 1,521 pounds of 
cocaine, 3,505 pounds since fiscal year 2002. And 22.5 pounds 
of heroin, 22.5 pounds since fiscal year 2002. Cocaine and 
heroin seizures have been on the rise and have more than 
doubled since fiscal year 2002.
    As I've stated, cocaine and heroin are mainly interdicted 
at our checkpoint operation. Most narcotic cases are prosecuted 
federally, and those that fall below the Federal threshold are 
prosecuted by State and local authorities. This is possible 
because of the close working relationship developed in our 
counternarcotic efforts.
    A key component of our counternarcotics effort is our 
canines. We have 57 canine teams assigned to the stations and 
checkpoints. They are on call 24 hours a day to assist agents 
in the field and other agencies as requested. These teams have 
been highly effective in both detecting people and narcotics. 
With regards to narcotics, during the same time periods 
previously mentioned, fiscal years 2002, 2003 and 2004, our 
canine teams have assisted in the seizures of approximately 
299,000 pounds of marijuana, 3,348 pounds of cocaine, and 23 
pounds of heroin. In May 2004 alone, one canine handler 
assisted three local and one Federal law enforcement agency in 
separate callouts. This resulted in the seizure of 1,285 pounds 
of marijuana, 89 pounds of cocaine, and $5,678 in currency.
    Interdiction efforts often cause smugglers to resort to 
extraordinary measures to avoid apprehension. They are more 
likely to flee from agents and use violence, by using their 
vehicles as weapons, or use of firearms to protect their cargo. 
On October 12, 2002, a female agent assigned to the Fort 
Hancock Station was shot in the leg while attempting to 
interdict a narcotics load. She survived and has returned to 
full duty. Despite the desperation of the smugglers, our agents 
continue to be vigilant in protecting our borders.
    I would like to add that the men and women of the El Paso 
Sector are committed to the safety and security of the Nation's 
borders, no matter the threat--whether from terrorists, 
undocumented immigrants or narcotics smugglers. I'm extremely 
proud of the commitment and professionalism of these men and 
women and the important role they play in our national 
security. And I also assure you that this degree of dedication 
and vigilance will continue, despite operational challenges.
    I am confident also of your continued support, and I thank 
the subcommittee for this opportunity to be present to provide 
my testimony today. I would be pleased to respond to any 
questions that you might have at this time.
    [The prepared statement of Mr. Barker follows:]

    [GRAPHIC] [TIFF OMITTED] T7998.007
    
    [GRAPHIC] [TIFF OMITTED] T7998.008
    
    [GRAPHIC] [TIFF OMITTED] T7998.009
    
    [GRAPHIC] [TIFF OMITTED] T7998.010
    
    [GRAPHIC] [TIFF OMITTED] T7998.011
    
    Mr. Souder. Thank you. Our second witness is Mr. Cates, 
Special Agent in Charge, El Paso ICE division of Customs 
Enforcement.
    Mr. Cates. My name is Kenneth Cates, C-A-T-E-S. Good 
afternoon, Chairman Souder and distinguished members of the 
subcommittee. I am honored to appear before you to discuss the 
``Impact of the Drug Trade on Border Security.'' My name, as I 
said before, is Kenneth Cates. I'm the Deputy SAC of the El 
Paso District, and I represent U.S. Immigration and Customs 
Enforcement, which is the largest investigative arm of the 
Department of Homeland Security. ICE is charged with the 
mission of preventing terrorist and criminal activity by 
targeting the people, money, and materials that support 
terrorist and criminal organizations. One of our key goals 
within that larger mission is to detect and address 
vulnerabilities in our border security. These vulnerabilities 
include the threats posed by criminal organizations engaged in 
the smuggling of illegal narcotics and other contraband across 
our Nation's borders.
    ICE's combined capabilities, bringing together the 
expertise and the authorities of the former U.S. Customs 
Service and the former Immigration and Naturalization Service, 
make it a powerful weapon in the fight against smuggling and 
narco-trafficking organizations. This expertise is further 
augmented by the assets and the abilities of the ICE Air and 
Marine Operations. With these newly combined investigative 
authorities and expertise, ICE is uniquely positioned to 
address the threats posed by criminal smuggling organizations.
    Consider, for example, ICE's creation of a unified 
smuggling division. Prior to our reorganization into DHS, 
enforcement authorities for drug and contraband smuggling and 
enforcement authorities for human smuggling were the exclusive 
province of separate agencies. Unfortunately, criminal 
smuggling organizations do not observe the same careful 
divisions of labor. Motivated by profit, they may smuggle 
narcotics 1 day and human ``cargo'' the next, shifting their 
tactics in response to demand, profit margins, and enforcement 
patterns. By combining these authorities and investigative 
expertise, we can now target these organizations much more 
effectively, whether they are trafficking in drugs, weapons, 
illegal aliens, or even terrorists.
    Moreover, with its financial investigations capabilities, 
ICE is able to follow the money trails that support these 
criminal smuggling organizations. Under Operation Cornerstone, 
our comprehensive economic security initiative, ICE has the 
ability to follow the money trails that support smuggling, 
criminal, and terrorist organizations. With Cornerstone, ICE 
brings to bear one of the most sophisticated financial 
investigations Divisions in law enforcement to detect these 
financial schemes, disrupt the flow of money, and dismantle 
these criminal organizations.
    In coordination with our counterparts from U.S. Customs and 
Border Protection and the DEA, we are utilizing these newly 
combined law enforcement capabilities as a part of a focused 
and integrated strategy to combat the flow of illegal narcotics 
and contraband across our Nation's borders--particularly here 
along the Southwest Border.
    For many years, the Southwest Border region has been a 
preferred point of entry for many drug smuggling organizations, 
and a result of this has been a major focus for drug 
interdiction. The ease with which narcotics can be smuggled 
into the United States underscores the seriousness of this 
vulnerability. The U.S. Southwest Border stretches across 3300 
kilometers and boasts an extensive network of Ports of Entry 
and border crossings, as well as a number of documented areas 
where unofficial crossings occur. Established routes, 
organizations, and methods used to smuggle one commodity, such 
as narcotics, could easily be exploited to smuggle others, such 
as people, bulk cash, small arms, contraband, or even weapons 
of mass destruction.
    I would emphasize that these smuggling and narco-
trafficking organizations are flexible and adaptive. When we 
increase seizures at one point, they frequently shift their 
operations elsewhere, where there is less perceived resistance 
from law enforcement. I will emphasize also these criminal 
smuggling organizations are often highly sophisticated. Along 
with their criminal experience, they have developed an acute 
knowledge and awareness of U.S. border security and enforcement 
operations, so that they can change their tactics in response 
to new enforcement patterns.
    One particular area of concern is the increase of 
methamphetamine usage and investigations along the Southwest 
Border. It is believed that due to the increased seizures and 
enforcement operations along the Northern Border, as well as 
pressure being placed by Canadian law enforcement on 
importation of pre-cursor chemicals, we may be seeing more 
methamphetamine smuggling investigations along the Southwest 
United States. ICE investigators, working in cooperation with 
Federal, State, and local law enforcement, will continue to 
track trends and developments in the methamphetamine trade.
    Despite the decrease in reported seizure numbers from 
fiscal year 2003 to currently in 2004, we must not be 
complacent in believing that drug smuggling organizations will 
not continue to probe our Nation's borders for easier methods 
and routes to smuggle narcotics into the United States. I can 
assure you that we will continue to carry on our mission of 
securing our Nation's borders and protecting our homeland from 
threats posed by criminal and terrorist organizations.
    In conclusion, I would like to thank you, Mr. Chairman, and 
the members of the subcommittee for the privilege to testify 
before you today. It's my pleasure to answer any questions that 
the committee may have at this time.
    [The prepared statement of Mr. Cates follows:]

    [GRAPHIC] [TIFF OMITTED] T7998.012
    
    [GRAPHIC] [TIFF OMITTED] T7998.013
    
    [GRAPHIC] [TIFF OMITTED] T7998.014
    
    [GRAPHIC] [TIFF OMITTED] T7998.015
    
    [GRAPHIC] [TIFF OMITTED] T7998.016
    
    Mr. Souder. I thank you for your testimony.
    Next is Mr. Chavez, regional director of the New Mexico 
partnership of the HIDTA.
    Mr. Chavez. It's Errol Chavez, E-R-R-O-L, C-H-A-V-E-Z. 
Chairman Souder, Congressman Pearce and distinguished members 
of the subcommittee and honored guests, it is indeed my 
distinct pleasure to appear before you today. Again, my name is 
Errol Chavez, the Director of New Mexico High Intensity Drug 
Trafficking Area, HIDTA. On behalf of the members of the New 
Mexico HIDTA, I would like to thank this subcommittee for your 
continued support of the HIDTA and its mission.
    There is a notable increase in the amount of narcotics 
entering into the United States through New Mexico. Recent 
narcotic seizures are directly linked to the impact that the 
Mexican and the U.S. Governments are having on the heads of the 
Mexican cartels. The results of our enforcement efforts have 
lowered the level of control of at least two Mexican cartels, 
while increasing the level of control of two Mexican cartel 
leaders, Ismael ``Mayo'' Zambada Garcia and Vicente Carrillo 
Fuentes, thus increasing the amount of narcotics entering the 
United States through New Mexico.
    While the amount of marijuana entering into the United 
States remains constant, other narcotics trafficking is on the 
rise. This is evidence that a growing amount of cocaine is 
being funneled through New Mexico for distribution throughout 
the United States. Methamphetamine production in Mexico is also 
increasing and is entering through New Mexico for the U.S. 
market. Heroin continues to be readily available. In New 
Mexico, the impact of narcotics trafficking has become 
increasingly significant.
    The entire State of New Mexico is affected by these Mexican 
cartels and each of the drugs they traffic through the State. 
Marijuana seizures continue to be made around the State. The 
marijuana market is dominated primarily by Mexican traffickers, 
but there is also evidence that marijuana is being grown in New 
Mexico. Marijuana is also being grown in California and Arizona 
and does cross New Mexico's borders, but is usually destined 
for the northeastern coast of the U.S. multi-ton marijuana 
seizures occur annually along the Southern New Mexican Border 
and the three interstate arteries, I-40, I-25 and I-10.
    Marijuana is smuggled into New Mexico at the ports of entry 
and between the ports of entry. The exact location of the 
smuggling varies depending on the enforcement efforts of the 
Border Patrol Agents and the Customs and Border Protection 
Inspectors. In comparison to the other Southwestern Border 
States, New Mexico has fewer Border Patrol agents assigned to 
patrol the border between New Mexico and Mexico and fewer CBP 
inspectors to man the ports of entry, thus allowing smugglers 
more opportunities to smuggle narcotics into New Mexico, and 
therefore increasing the threat to New Mexico.
    Cocaine seizures are on the rise in New Mexico. The 
noticeable increase in cocaine-related activity is directly 
related to increases in law enforcement efforts in California 
and Arizona.
    Methamphetamine is of major concern to New Mexico as it is 
still the most favored drug for abuse. In general, 
methamphetamine is produced in Mexico in its purest form and 
then smuggled into the United States in bulk quantities, where 
it passes through New Mexico for distribution into other parts 
of the United States. Methamphetamine also comes into New 
Mexico for personal use from mid-level distributors from 
Arizona and California.
    Additionally, methamphetamine is produced in small 
quantities in New Mexico by users, but in such small amounts it 
only reaches the personal use level. The number of 
methamphetamine laboratories has more than doubled from 1998 
through 2002. Most of these laboratories were small operations 
designed to produce two ounces or less at a time, making 
methamphetamine more available. Nevertheless, the growing 
threat of small clandestine laboratories cannot be overlooked, 
especially given the environmental and health-related issues 
associated with methamphetamine lab by-products, the high costs 
and manpower requirements involved in each cleanup, and the 
increasing number of residential fires associated with 
methamphetamine laboratories.
    While a significant amount of narcotics simply passes 
through the State for distribution elsewhere, a reasonable 
amount remains in New Mexico for local distribution and 
consumption. Two counties in Northern New Mexico, Rio Arriba 
County and Santa Fe County rank one and two in the Nation for 
heroin overdoses per capita. Heroin abuse has been a persistent 
problem for generations, but the addict population continues to 
grow steadily as a result of the location of the main supplier. 
The primary source of supply for heroin is located in Nayarit, 
Mexico.
    The magnitude of the heroin problem was best described in 
1999 at the culmination of the Drug Enforcement 
Administration's Operation Tar Pit. Over 200 heroin 
distributors were arrested in 17 States, all of which were 
linked to the Nayarit source of supply. Since the arrests, 
statistics clearly show that the overdose rate in New Mexico 
dropped for a short period of time, but is now approaching peak 
levels despite valiant efforts to address the heroin problem. 
In order to adequately combat the heroin dilemma in New Mexico, 
added personnel and funding resources are desperately needed.
    As a result of the implementation of North American Free 
Trade Agreement, known drug traffickers are exploiting 
commercial trade to facilitate their drug smuggling activities. 
Drug traffickers are now directly involved with well-known 
legitimate trucking firms that are less likely to be targets of 
law enforcement scrutiny. They are using trade consultants to 
determine what merchandise moves most quickly across the border 
under NAFTA regulations. They are also owners or controlling 
parties in commercial trade-related businesses within the 
Mexican transportation infrastructure.
    Once an international drug smuggler succeeds in importing 
contraband into the United States, the Southwest Border becomes 
a gateway for narcotics destined for major metropolitan areas. 
Drug traffickers obtain warehouses in Texas and Southern New 
Mexico to ``stash'' the drugs and then recruit drivers from 
these areas to transport the drugs to various destinations 
throughout the United States.
    The response from my Federal law enforcement agencies----
    Mr. Souder. Wait, Mr. Chavez, we're going to need to have 
you summarize this last section.
    Mr. Chavez. Yes. I was going to skip a page, as a matter of 
fact. My emphasis, if I may, is to discuss the lack of staffing 
by Federal agencies on the Southwest Border. The Drug 
Enforcement Administration does maintain a presence along the 
border, but because of the number of newly identified 
investigations, the work that is being done by the Border 
Patrol and the increased flow of narcotics has resulted in the 
Drug Enforcement Administration being understaffed and not 
capable, and experiencing difficulty in responding to all of 
the requests. Therefore, the HIDTA's trying to create these 
task forces so we can have a multiple effect in force--in 
developing these investigations.
    If I may, as a matter of conclusion, New Mexico is 
expecting a shift in the smuggling patterns of the Mexican 
cartels operating along the U.S. Southwestern Border with 
Mexico. More drugs are expected to pass through New Mexico for 
distribution throughout the United States. This does not mean 
that more drugs will be smuggled into the United States, but it 
does mean that more drugs than ever will be funneled through 
New Mexico.
    To address the increase in drug smuggling and the rise in 
criminal activity in New Mexico, the Federal Government should 
continue to emphasize the importance of enforcing the narcotics 
laws and provide the necessary staffing and resources 
desperately needed along the entire Southwest Border. Federal, 
State and local police agencies in New Mexico are performing 
and coordinating their duties well, but are all severely 
understaffed and lack resources to adequately contribute in the 
Nation's effort to stop the narcotics from entering the United 
States.
    [The prepared statement of Mr. Chavez follows:]

    [GRAPHIC] [TIFF OMITTED] T7998.017
    
    [GRAPHIC] [TIFF OMITTED] T7998.018
    
    [GRAPHIC] [TIFF OMITTED] T7998.019
    
    [GRAPHIC] [TIFF OMITTED] T7998.020
    
    [GRAPHIC] [TIFF OMITTED] T7998.021
    
    [GRAPHIC] [TIFF OMITTED] T7998.022
    
    [GRAPHIC] [TIFF OMITTED] T7998.023
    
    Mr. Souder. Thank you. And all of your full statements will 
be in the record. And we'll probably have some more questions 
about the Santa Teresa area, and a few other areas.
    Next witness is Mr. Luis Garcia, Director of Field 
Operations, El Paso Office, U.S. Customs and Border Protection, 
DHS.
    Mr. Garcia. Good afternoon. My name is Luis Garcia, 
spelling L-U-I-S, G-A-R-C-I-A, and I am the Director of Field 
Operations for Customs and Border Protection in El Paso, TX.
    Mr. Chairman, distinguished members of the committee, thank 
you for this opportunity to appear today to discuss the efforts 
of the Customs and Border Protection Officers under the El Paso 
Field Office in interdicting narcotics arriving in the United 
States through the various ports of entry in Western Texas and 
New Mexico.
    The CBP's El Paso Field Office is responsible for the 
management of five ports of entry, encompassing 10 border 
crossings, spread along more than 550 miles of border with 
Mexico. These five ports of entry are staffed by nearly 1,000 
inspection officers, including 86 canine enforcement officers. 
During fiscal year 2003, these officers seized more than 
223,000 pounds of marijuana, 3,100 pounds of cocaine, and 200 
pounds of heroin. These figures represent 24 percent of all the 
marijuana, 4 percent of all the cocaine, and 5 percent of the 
entire heroin seized at all the ports of entry nationwide last 
fiscal year.
    This fiscal year, approximately 40 percent of the marijuana 
seized at the ports of entry under the El Paso Field Office has 
been found in commercial trucks. This method of smuggling has 
been a growing threat for several years now and we have 
introduced several forms of non-intrusive inspection technology 
to address the threat.
    Every port in western Texas and New Mexico through which 
commercial trucks enter the United States has at least one 
large-scale unit capable of inspecting complete trucks at a 
minimum rate of six trucks per hour. Obviously, this does not 
permit us to examine all trucks with this technology, but 
additional units are being added. At this time, approximately 
one of every five trucks arriving through the port of El Paso 
is processed through this non-intrusive inspection technology. 
Inspection rates at the smaller ports are much higher.
    We have entered into partnerships with shippers, importers 
and transporters in an effort to more effectively address both 
the terrorist threat and the smuggling of narcotics through our 
ports of entry. One of the latest forms of these partnerships 
is called Free and Secure Trade, or FAST. Under the FAST 
program, the shipper, importer, transporter and driver are all 
vetted before program participation is allowed. We know with 
whom we are working and they know what is expected of them. And 
as a further means of ensuring compliance, non-intrusive 
inspection units are dedicated to the FAST program so the 
arriving FAST trucks can be inspected at a much higher rate 
than non-FAST carriers.
    Currently in El Paso, 60 percent of all arriving FAST 
shipments are x-rayed upon arrival. We want to be very sure 
this program is not compromised. With dedicated equipment, we 
are able to inspect at a much higher rate and still process and 
release the shipments much faster than we do those shipments 
that are not part of the program.
    The port of El Paso also receives commercial shipments by 
rail across two bridges from Ciudad Juarez. We now have non-
intrusive inspection technology installed at each of these 
bridges and are inspecting all arriving trains as they cross 
the bridges.
    If we find 40 percent of the marijuana in the commercial 
trucks, where do we find the balance of the marijuana, along 
with the cocaine and heroin? Nearly all of it has been found in 
private vehicles. The five ports of entry under my Field Office 
process--on average--more than 45,000 private vehicles every 
day. From this, we average 4.5 narcotic seizures per day, or 
one seizure for every 10,000 private vehicles that we process.
    Since our non-intrusive inspection technology is aimed 
toward the large loads in commercial trucks where the average 
seizure is 2,400 pounds, nearly all loads in the private 
vehicle environment are found due to the hard work of 
individual inspectors and canine officers working with our 
highly trained narcotic detector dogs.
    I don't want to give you the impression that we work alone, 
ignoring the valuable contributions of other agencies with whom 
we work in our counter-drug activities. Our ICAT dedicated 
intelligence unit has elements from both Immigration and 
Customs Enforcement and, from within the CBP, the Border 
Patrol, working alongside our inspectional personnel.
    We know that technology alone will not stop drug smuggling. 
It never has. It never will. The hardworking, dedicated men and 
women that I am proud to lead are our best means for 
interdicting drugs and for deterring the smuggling 
organizations. Were it not for the efforts of these motivated 
public servants, an additional 113 tons of marijuana, cocaine 
and heroin would have been on the streets of the United States 
last year. The men and women of Customs and Border Protection's 
Office of Field Operations, assigned to the ports of entry in 
western Texas and New Mexico, working in cooperation with CBP's 
Border Patrol between the ports of entry, as well as with ICE 
agents, have made a difference. And they will continue to do 
so. Thank you again for this opportunity to testify.
    [The prepared statement of Mr. Garcia follows:]

    [GRAPHIC] [TIFF OMITTED] T7998.024
    
    [GRAPHIC] [TIFF OMITTED] T7998.025
    
    [GRAPHIC] [TIFF OMITTED] T7998.026
    
    [GRAPHIC] [TIFF OMITTED] T7998.027
    
    Mr. Souder. Thank you very much.
    Our next witness is Mr. Sandy Gonzalez, Special Agent in 
Charge for DEA El Paso Field Division. It's good to have you in 
front of our subcommittee.
    Mr. Gonzalez. Mr. Chairman, members of the subcommittee, it 
is my pleasure to again appear before you. My name is Sandalio 
Gonzalez. That's S-A-N-D-A-L-I-O, G-O-N-Z-A-L-E-Z, and I am the 
Special Agent in Charge of the El Paso Field Division of the 
Drug Enforcement Administration. On behalf of DEA Administrator 
Tandy and the men and women of the DEA, I thank the 
subcommittee for your continuous support of the DEA mission.
    Throughout our 30-year history, the DEA has taken a 
leadership role in fostering cooperation among law enforcement 
agencies combating this scourge of drug trafficking. The drug 
trafficking threat facing Southern New Mexico far exceeds the 
capabilities of the DEA or any other single law enforcement 
agency. Effectively targeting drug trafficking organizations 
and successfully disrupting their organizations requires 
partnerships among government agencies at all levels. DEA 
promotes these partnerships in order to establish effective 
mechanisms to bring about this cooperation.
    Our Las Cruces resident office is a HIDTA-designated task 
force, and it is responsible for the 12 southernmost counties 
in New Mexico. One of its primary missions is response to the 
Bureau of Customs and Border Protection checkpoint seizures and 
arrests, as well as significant seizures made at the two New 
Mexico Department of Motor Vehicles ports of entry is Southern 
New Mexico. This mission alone consumes about 60 percent of our 
agents' time. The DEA also focuses significant resources toward 
identifying, targeting and dismantling priority drug 
trafficking organizations at the local, regional and 
international level.
    In order to accomplish this mission, we depend upon 
significant contributions from our local, State and Federal 
counterparts in terms of intelligence, manpower, and resources.
    DEA continues to foster cooperative investigative endeavors 
throughout Southern New Mexico, and has been especially 
successful in conducting long-term investigations with HIDTA 
task forces in Southern New Mexico. We all want to cooperate 
and share intelligence. The challenge is how best to promote 
cooperation and intelligence sharing in our unique environment 
in an efficient and cost-effective manner.
    All Federal, State and local law enforcement agencies in 
Southern New Mexico are faced with the same challenges. 
Geography, limited law enforcement presence, a support system 
that is currently overwhelmed as a result of the substantial 
increase in immigration and drug trafficking prosecutions, and 
a multi-faceted nature of the drug trafficking threat in the 
region. Our Las Cruces office operates both under the auspices 
of the HIDTA program, as well as on an agency-to-agency basis.
    Las Cruces is comprised of a cross-section of local, State 
and Federal task force officers. The multi-agency staffing lays 
a solid foundation for enhanced cooperation. Were it not for 
the enhanced resources and manpower provided by all local, 
State and Federal agencies, the DEA would be hard pressed to 
effectively conduct both this border referral and major 
conspiracy investigative mission.
    An example of cooperation between the DEA Las Cruces Office 
and its law enforcement counterparts in Southern New Mexico is 
the investigation and severe disruption of a local cocaine 
trafficking and distribution organization operating in Las 
Cruces and Dona Ana County.
    In the fall of 2002, the DEA, FBI, New Mexico State Police 
and the Las Cruces-Dona Ana Metro Narcotics Unit, identified a 
significant cocaine trafficking organization based in 
Michoacan, Mexico. We realized that we were targeting the same 
organization, and HIDTA, through enhanced liaison and 
intelligence sharing, pooled our intelligence and investigative 
resources to target this organization. Utilizing HIDTA, OCDETF, 
and Special Operations Division resources, we were able to 
obtain 37 Federal and 71 State level indictments against this 
organization. The impact of this operation remains evident to 
this day, as the current purity level of cocaine being sold in 
Las Cruces and Dona Ana County is now nearly half of what it 
was prior to the onset of this operation. None of the 
participating agencies could have achieved this success on 
their own.
    The Las Cruces office also leverages border referral 
investigations by conducting controlled deliveries of seized 
narcotic loads to their destination cities. These controlled 
deliveries are time-sensitive and require extensive 
coordination, both within DEA as well as other law enforcement 
agencies.
    An example of such coordination was a controlled delivery 
of cocaine conducted by the Las Cruces Office to Colorado 
Springs, Colorado. An integral part of this controlled delivery 
was the effective coordination and use of ICE Airwing assets to 
transport our agents and the cooperating defendant to Colorado. 
This operation resulted in the arrest of two additional 
subjects and the seizure of over $300,000 in cash.
    The long-term effects of this controlled delivery continue 
to pay dividends for our DEA counterparts in Colorado, and none 
of this would have been possible without effective coordination 
and the participation of the ICE Airwing. DEA fully supports 
the mission goals and objectives of the New Mexico HIDTA 
program to enhance and coordinate New Mexico's drug control.
    We are an active participant in the New Mexico HIDTA and 
its Intelligence Center. We support the New Mexico HIDTA 
Intelligence Center's mission of fully integrating New Mexico's 
counter-drug law enforcement information architecture and the 
sharing of intelligence, not only in New Mexico, but throughout 
other jurisdictions in the United States.
    While law enforcement in Southern New Mexico has improved 
over the past years, we can do better. We fully support the 
ongoing efforts of the New Mexico HIDTA to increase cooperation 
and intelligence sharing in its comprehensive strategy for 
increasing intelligence collection and dissemination 
capabilities. Our citizens deserve nothing less than our 
ongoing efforts to combat drug traffick-
ing.
    I thank you again for the opportunity to testify before the 
subcommittee today, and I'll be able to answer your questions. 
Thank you.
    [The prepared statement of Mr. Gonzalez follows:]

    [GRAPHIC] [TIFF OMITTED] T7998.028
    
    [GRAPHIC] [TIFF OMITTED] T7998.029
    
    [GRAPHIC] [TIFF OMITTED] T7998.030
    
    [GRAPHIC] [TIFF OMITTED] T7998.031
    
    [GRAPHIC] [TIFF OMITTED] T7998.032
    
    Mr. Souder. Thank you.
    Our last witness on the first panel is Mr. Steven Swingle, 
Acting Aviation Group Supervisor of the Albuquerque Air Branch 
Office of Air and Marine Operations, ICE Division of the DHS.
    Mr. Swingle. Thank you. My name is Steve Swingle, S-W-I-N-
G-L-E, U.S. Immigration and Customs Enforcement Office of Air 
and Marine Operations.
    Good afternoon Mr. Chairman, Mr. Pearce, distinguished 
subcommittee members. It's a pleasure to appear before you 
today and to share an operational view of the U.S. Immigration 
and Customs Enforcement Office of Air and Marine Operations on 
``The Impact of the Drug Trade on Border Security.'' Let me 
begin by expressing my appreciation for your interest in this 
critical national security matter and for your continued 
support of the men and women of the Department of Homeland 
Security who put their lives on the line daily to secure our 
borders against smuggling organizations and potential 
terrorists.
    ICE's Office of Air and Marine Operations protects our 
Nation's people and critical infrastructure by using an 
integrated and coordinated air and marine force to deter, 
interdict, and prevent potential acts of terrorism arising from 
the unlawful movement of people and goods across the borders of 
the United States.
    AMO's three core competencies--air and marine interdiction, 
air and marine law enforcement, and airspace security--provide 
critical, rapid, and flexible support to the Department of 
Homeland Security's counter-terrorism, law enforcement, and 
counter-smuggling operations at sea, on our borders, over our 
cities, and across our Nation's interior.
    As an air and marine law enforcement agency, AMO employs 
133 aircraft and 72 marine assets to meet many of the Nation's 
critical homeland security needs. The majority of AMO's 1,000 
personnel are operationally deployed--primarily along the 
southern border. Major AMO facilities are located in Texas, 
Florida, New Mexico, Arizona, Louisiana, California and Puerto 
Rico. In addition, the first two of five planned Northern 
Border Branches are being launched in Bellingham, Washington, 
and Plattsburgh, New York this year. Currently, AMO branches 
across the country provide personnel and assets on temporary 
duty to enforce airspace security over Washington, DC, and for 
other sensitive locations and events throughout the Nation as 
designated.
    Also, in support of Presidential Decision Directive-14, AMO 
routinely deploys internationally to conduct counter-drug 
missions in source and transit zones.
    The focus of today's hearing is drug trafficking on the 
southern border. I would like to highlight how AMO contributes 
to the fight against narcotics trafficking. In fact, AMO's 
legacy mission was born in the fight against illegal movement 
of drugs and people by air and sea--mainly across our Southwest 
Border.
    While AMO has been tasked with new missions in the post-
September 11, 2001 strategic environment, the agency remains 
dedicated to our legacy missions because those threats remain 
as urgent as ever.
    In particular, existing smuggling routes and networks 
represent a new threat. As the United States continues to 
harden legal points of entry against potential terrorists, 
there are very serious risks that traditional smuggling routes 
and networks are vulnerable to exploitation by terrorists who 
seek to covertly move operatives and weapons into this country.
    Smuggling networks are in the business of moving people and 
goods. These are multi-million-dollar criminal enterprises 
dedicated to the illegal movement of tens of thousands of 
illegal immigrants and tons of illicit cargo into our country 
without detection.
    It takes little imagination to understand how easily such 
mature delivery systems could facilitate the movement of 
terrorists and their weapons into this country.
    In order to continue providing AMO personnel with the best 
tools, training, safety and equipment, AMO has approved a new 
modernization plan. It is a comprehensive capability-based 
systems acquisition strategy designed to improve AMO 
operational effectiveness and to reduce overall life cycle cost 
in the most effective manner and in the minimum amount of time.
    It is a strategic plan that provides an overview of the 
current state of AMO infrastructure and outlines the necessary 
acquisition of platforms, sensors and logistic support to meet 
new and legacy missions and responsibilities of AMO.
    In conclusion, I would like to thank you, Mr. Chairman, 
again for the opportunity to highlight the Office of Air and 
Marine Operations within Immigration and Customs Enforcement. 
AMO remains a critical tool in the national effort to secure 
our borders against smuggling networks and potential 
terrorists. It would be my pleasure at this time to answer any 
questions that you may have.
    [The prepared statement of Mr. Swingle follows:]

    [GRAPHIC] [TIFF OMITTED] T7998.033
    
    [GRAPHIC] [TIFF OMITTED] T7998.034
    
    [GRAPHIC] [TIFF OMITTED] T7998.035
    
    [GRAPHIC] [TIFF OMITTED] T7998.036
    
    [GRAPHIC] [TIFF OMITTED] T7998.037
    
    [GRAPHIC] [TIFF OMITTED] T7998.038
    
    [GRAPHIC] [TIFF OMITTED] T7998.039
    
    Mr. Souder. Thank you. Before I start the questioning, I 
should have noted at the beginning that this subcommittee held 
hearings in San Diego, multiple times actually; Arizona, 
Nogales and over in El Paso. We've been down from Laredo to 
McAllen. And this is our first time into New Mexico, which is 
partly because it is closely related to El Paso, but, as you 
clearly stated, has its own problems. In the kind of open zone, 
when you squeeze one part you move problems around. And we felt 
it was important to get that.
    But this is also part of an ongoing investigation that we 
continue to look at in the Southwest Border, because there's no 
question the Southwest Border is our primary transit zone for 
narcotics, overwhelmingly our primary transit zone for 
narcotics, and we're trying to integrate that.
    I also serve on the Committee on Homeland Security and on 
the subcommittee on Border there. And we've been having some 
very tense questioning about integration questions and how 
narcotics is fitting into the mission, including just 2 weeks 
ago at a subcommittee hearing there.
    So I have a series of questions that I want to try to sort 
through today that won't be as New Mexico-focused here, but 
first on some general policies and how you're approaching it in 
this section of the border.
    A number of these are directed first to DHS divisions. And 
I'll start with Mr. Barker. For your division and your agents, 
where does drug trafficking stand in the priorities? Is it a 
high priority? Do you view your primary mission as to stop 
terrorists, to stop illegal immigration, to stop drugs? How do 
you handle that?
    Mr. Barker. The primary mission is preventing the entry of 
terrorists and weapons of mass destruction. But as we see it in 
the Border Patrol, our missions, really, and how we perform 
these functions have not really changed much in terms of our 
deployment since September 11. We look at all our enforcement 
strategies as one that's capable to stop all of them.
    Our secondary mission before the creation of the Department 
of Homeland Security, was drugs. That's still a very high 
priority. We feel that our deployment, as we say, will take 
care of anything that comes across the border, whether it's a 
terrorist, weapons smuggler, narcotics smuggler, and the like.
    It is a very high priority, and you can see by the 
statistics it's being doggedly pursued. Considering the fact 
that we have seen the shift, especially in the Fabens Corridor 
and the Deming Corridor, we see that as a very high priority. 
That cannot be separated from that priority that we put to the 
terrorists and weapons of mass destruction.
    Mr. Souder. Mr. Garcia, when you're checking a vehicle, if 
you put a bomb-sniffing dog on the drug, can you also put a 
drug-sniffing dog on the same one, or does it tend to be 
mutually exclusive?
    Mr. Garcia. Our canines are trained for different types of 
processes. We have chemical detection dogs as well as bomb 
detection dogs and narcotics detection dogs.
    Additionally, all our officers that are on the front lines 
carry a personal radiation detector device on their person.
    Mr. Souder. So when dealing with the psychology of how your 
individual agents are working with this, when they're seeing a 
truck and they have a radiation device, and then if--do you 
have bomb-sniffing dogs at your border crossings?
    Mr. Garcia. We have them assigned to El Paso. At the moment 
the two positions are vacant, but we do have two.
    Mr. Souder. Wouldn't you see a subtle change occurring in 
what your agents view as their priority if each one is carrying 
radiation devices and you have the bomb-sniffing dogs, as 
opposed to what was historically a much more drug-oriented 
mission.
    Mr. Garcia. Our priority, top priority, is terrorists and 
their weapons coming across our borders, realizing that 
terrorists are people, of course. Immigration and the narcotic 
detection enforcement efforts kick in secondary to our primary 
mission.
    Mr. Souder. The ranking member of the subcommittee, Mr. 
Cummings, points out that we have 20,000 deaths annually--since 
September 11 we've had over 45,000 deaths in the United States 
because of narcotics and zero because of terrorism. And we have 
to make sure that in this mission we don't wind up switching 
over hunting for weapons of mass destruction, which may or may 
not ever occur at the Southwest Border, not to mention other 
types of things.
    I don't think there's any one of us who wants to see any 
atomic materials come across or borders that could wipe out 2 
million people, but somewhere we've got to make sure that we 
don't play what all of you who have been in this service know, 
and that is, when the Federal Government says, ``X is a 
priority,'' everybody goes running toward that priority. And 
for 2 to 5 or 6 years, we reorient toward missing children, we 
reorient toward this, whatever the thrust is, and then go back 
and say, ``Whoops, we missed this big problem over here.''
    And we need to know at the Federal level what kind of 
pressure we're actually putting on when we say, ``Oh, 
everybody's going to be checking for this.'' What was dropped 
as well? Because if we don't see these, often in political 
terms it is a mutually exclusive choice.
    Now, yes, the machines you have are going to pick up both, 
and you're going to be able to see that. But there are some 
choices, and we need to understand what, A, is happening at the 
grassroots level with those choices; and secondarily, 
psychologically, what it does with the individuals if they 
think that the pressure is on one item and that there's not as 
much focus on the other.
    You look like you wanted to respond.
    Mr. Garcia. At our ports of entry, it's a natural funnel 
for people coming directly into the ports of entry. We don't 
see a conflict between our terrorist priorities with the 
narcotics, with our trade, everything that funnels into one 
particular mode into the other. We look for terrorism, we look 
for narcotics, we look for legitimate trade coming across, make 
sure that people are documented to be entering the United 
States. So we don't see a conflict at all at our ports of 
entry.
    Mr. Souder. OK. Let me ask either Mr. Barker or Mr. Cates 
or Mr. Garcia or Mr. Swingle, have any of you had any 
interaction with Roger Mackin.
    Mr. Swingle. No, sir.
    Mr. Barker. No, sir.
    Mr. Cates. No, sir.
    Mr. Garcia. No, sir.
    Mr. Souder. Have you seen any memos in your organization 
from Mr. Mackin?
    Mr. Garcia. I don't recall seeing a memo with his name, 
sir.
    Mr. Souder. Do you know who he is.
    Mr. Cates. Yes, sir.
    Mr. Barker. No, sir.
    Mr. Garcia. No, sir.
    Mr. Souder. His policy was created in the Department of 
Homeland Security coordinating narcotics efforts inside the 
Department of Homeland Security. And we're trying to sort out 
why that isn't getting through in the Department of Homeland 
Security. And how that's handled. So you answered my question.
    Next, I wanted to ask one more question before yielding to 
Mr. Pearce. One of the concerns is how you're coordinating the 
operations inside the Department of Homeland Security as it 
relates to narcotics.
    So let me ask the first question of both ICE and CBP. And 
maybe you can start with this, Mr. Cates. Do you still report 
drug seizures differently in the different divisions of 
Homeland Security?
    Mr. Cates. No, sir. The way we report drug seizures has not 
changed. We still have a unified statistical collection system 
that both ICE and CBP utilize.
    Mr. Souder. So if the Border Patrol seizes it, or whether 
ICE seizes it, or whether Air and Marine seizes it, there 
wouldn't be any kind of way, if I wanted to find out who was 
doing what to find it?
    Mr. Cates. I'm not sure I understand your question.
    Mr. Souder. One of our concerns is whether there is--we 
know for a fact there's a competition between your different 
agencies. The question is that you need to justify your budgets 
and your purposes. At the same time, particularly after you see 
the 9-11 commission report that is coming out and other things, 
there is going to be an outcry about our lack of integration 
inside the department.
    And in the area, to what degree is your reporting system? 
Do you still have the ability for your superiors or for 
Congress to figure out who is making the seizures inside the 
Department of Homeland Security, or is it seamless inside your 
own organization? I know you have a joint report as Department 
of Homeland Security, but, in fact, if I were to boost one of 
the agencies over another, can I figure out who's making the 
seizure, which indirectly gives you an incentive to keep it 
separated?
    Mr. Cates. I would tell you that I believe that the 
reporting, since the mergers actually are far more accurate--we 
still utilize in ICE, as do our counterparts in CBP, the former 
Treasury Communications Enforcement Network, which is the 
initial documentation of all seizure actions and all follow-on 
actions.
    And now, with the advent of the Border Patrol joining in 
DHS, they also have adopted that system and are now also 
engaged in their reporting through that one unified system.
    So the system itself is very, very reliable and very 
accurate in showing the origin of every individual seizure, and 
then every follow-on action, you know, that might add to it or 
enhance it in some way.
    So the merger of these agencies and the transition to that 
one unified reporting system, I think, actually significantly 
enhances the accuracy of reporting and prevents, in most 
instances, any sort of duplicitous reporting and claiming of 
seizures.
    Mr. Souder. Mr. Swingle, is that right.
    Mr. Swingle. Yes, sir.
    Mr. Souder. When the Border Patrol Agency or the ICE agency 
or your agency initiates a drug process, do the other subparts 
get immediately notified so you-all know you're working a case?
    Mr. Swingle. On a local level, we do. We do share 
intelligence. We have an intelligence officer that is 
responsible for working with the other agencies, CBP, OI, our 
own investigation arm, and we do attempt to coordinate that 
information.
    Mr. Souder. Mr. Barker, is it mandatory if any of your 
agents come into a drug case that it's immediately notified 
inside the other agencies in the Department of Homeland 
Security, so you can see whether it's part off an ongoing case?
    Mr. Barker. Our immediate notification is to turn it over. 
Depending on the memorandum of agreement we either turn it over 
to the counterparts within DHS or through DEA. It all depends 
on where the seizure occurred.
    But it's not for any follow-on investigation, because we do 
not have the investigative authority. It has to be turned over 
for that follow-on. And we rely on the agency to who it's 
turned over to determine whether the case ends there, whether 
there's going to be controlled delivery, or whatever follow-on 
investigation comes. But our notification is strictly to turn 
it over.
    Mr. Souder. Mr. Gonzalez, if anybody in DHS initiates a 
drug bust, does DEA get notified so you know whether it's part 
of an ongoing case?
    Mr. Gonzalez. We are notified if the seizure occurs at a 
checkpoint, and we respond. Depending on whether it meets the 
Federal guidelines for Federal prosecution, we take the seizure 
and try to develop the case, or we turn it over to the local 
authorities.
    Mr. Souder. But not if it's an ICE or Marine.
    Mr. Gonzalez. Correct. We only respond to the Border Patrol 
checkpoint.
    Mr. Souder. Do you tell ICE and Air and Marine if you're 
working on a drug case? In other words, there are lots of 
concerns about whether things are going to be compromised? But 
you're all Federal agencies, and as we have more and more 
agents--terrorism questions, for example, most of the FBI, it 
means we have fewer people working narcotics. Mr. Cates, did 
you----
    Mr. Cates. Mr. Chairman, there are mechanisms involved. 
Both DEA and ICE have interfaces between our national computer 
systems so that, for instance, were a CBP inspector to make a 
narcotic seizure on one of the bridges, an ICE agent would 
respond and initiate that investigation.
    Through our mandatory protocols for computer and 
intelligence query, if that particular suspect was somehow on 
record with DEA, we would be notified principally through the 
offices of the El Paso Intelligence Center, that DEA has some 
interest or some history. And, conversely, the DEA agents in 
any active investigation get a notification that there has been 
activity on that subject. Now, it's not always exactly 
realtime, but it does take place.
    Mr. Souder. Mr. Chavez, I know that's one of the purposes 
in the HIDTAs, that you're trying to do an Intelligence Center. 
And let me broaden that. In addition, in New Mexico and working 
with El Paso, one of our frustrations has been that the 
Southwest Border HIDTA has also, let's say, had a few conflicts 
between the States, and approximately between Douglas and 
Deming and El Paso. We can't afford to have those kind of 
things. So do you want to add to how you see the seamless----
    Mr. Chavez. Yes. The Investigative Support Center in Las 
Cruces is designed to do exactly what you're asking. If there 
is an agency working on a particular investigation, we do have 
a deconfliction purpose in which all participating agencies of 
the HIDTA and nonparticipating agencies can call to the 
Investigative Support Center to deconflict.
    Mr. Souder. Can call, or is it mandatory?
    Mr. Chavez. It's mandatory for members. And for non-
members, they can call. We are encouraging all members of the 
law enforcement community, and nonmembers, to use the 
Investigative Support Center to deconflict their investigation 
and allow us to conduct a pointer system that will point them 
to other agencies working on investigations that they are 
inquiring about from an intelligence perspective.
    We are also linked to the other HIDTAs along the Southwest 
Border, and we're establishing programs that will allow us to 
query their data directly from New Mexico, whether it's in 
Arizona or California or in Texas, that would allow us to 
deconflict with their investigations so that there would be a 
complete coordination.
    We're in the process now of getting new programs in place 
that will allow us to do that, a new system in place for a 
Watch Center, new equipment. And we're at a stage, the first 
step, in linking the entire Southwest Border for investigative 
purposes and interdiction.
    Another point to be made is that the agencies are given 
credit not only for seizures, but referrals. If they have an 
investigation and they are not working to develop that 
investigation, they can refer that information to another 
agency. And HIDTA does keep count of--because of our interest 
to have an impact on our investigation, so we are more attuned 
to looking at outcomes and not productivity.
    Mr. Souder. Your statement that you just made is eminently 
logical. I've been in Congress for 10 years and on this 
subcommittee for 10 years and I remember Barry McCaffery saying 
years ago that this was his goal in front of our committee 8 
years ago, that this is what we've been spending tens of 
millions of dollars on the Southwest Border with Federal agents 
and State and local. And you're saying we're trying to 
integrate through the HIDTAs on the Southwest Border.
    You've been in this business for a long time as well. Would 
you like to editorialize a little bit on what you think the 
problems have been and how we can make it actually happen?
    Mr. Chavez. With my 31 years with drug enforcement, having 
been assigned to offices in Mexico City for 3 years and the 
Agent in Charge in San Diego, the Special Agent in Charge in 
Phoenix for a year and a half, as well as working within the 
State of New Mexico, and particularly now with the HIDTA, I see 
a desperate need to open up the doors so that we can be linked 
to other agencies throughout the Southwest Border. And by 
opening up the doors, I mean to have direct access to the 
intelligence that is available.
    For too long there have been agencies who have been trying 
to hold on to that information because they were going to be 
given credit for their efforts, but now with this new design of 
how we're going to give credit--we will feel its impact, 
because we want to be focused in our efforts to target the most 
significant violators that will bring in the drugs into the 
United States.
    It's clearly a question of whether we are going to work 
together as a task force or work independently. And we are 
pushing to work as a task force jointly, openly, and have the 
confidence in our fellow law enforcement agents.
    Mr. Souder. Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman. First of all, I'd like 
to request unanimous consent that Mr. Hall and Ms. Peterson's 
testimony would be added. They were not able to make it in to 
testify on the second panel.
    Mr. Souder. No objection. So ordered.
    Mr. Pearce. Mr. Barker, last year I wrote to Mr. Hutchison 
requesting additional resources on the Southern New Mexico 
border. He wrote back saying 570 new patrol agents would be 
deployed this year. How many of those have actually been 
deployed, and how many actually came to New Mexico.
    Mr. Barker. We have not gotten the resources this year. We 
have not heard of the deployment for fiscal year 2004.
    Mr. Pearce. How many of the 570 that he promised have 
actually been deployed anywhere.
    Mr. Barker. I know of no deployment.
    Mr. Pearce. Could you find out and let me know? We 
shouldn't have had to ask for it twice, but we will.
    Mr. Cates, and I don't know if you're the right one to 
answer, just if any of you know the answer, the functions that 
you-all represent, how much of those function's dollars 
actually are spent along the border of New Mexico, and what 
percent does the border comprise of the entire border? I'm just 
wanting to compare our border mileage compared to the dollars 
spent. Does anyone know that relationship?
    Mr. Cates. No, sir, I do not.
    Mr. Garcia. No, sir, I do not.
    Mr. Pearce. Can we find that out? Mr. Cates, on page 46 of 
your testimony, you describe an acute knowledge and awareness 
of the processes by the drug cartels. Just makes it harder, 
makes them more effective. What processes do you have to 
actually change that so that they don't understand exactly how 
you operate and when you're going to do things that you're 
going to do.
    Mr. Cates. Well, both us and the Customs and Border 
Protection officers are constantly working to vary our 
routines, to apply changing investigative techniques or 
inspectional techniques.
    We are often limited by the fact that our operations are 
fixed. You know, our ports of entry do not move. They are 
susceptible to visual observation, how many lanes are open, 
that sort of thing. There have been significant investment in 
screening and deterrent activities such as that.
    Mr. Pearce. How much would it take to put motion detectors, 
Mr. Cates, all along the border--I mean, we are hearing 
tremendous testimony about motion detectors and high-resolution 
cameras. And how much would it cost to equip the border to 
where we could see the border all at one time.
    Mr. Cates. We in ICE don't perform that function. That is 
probably addressed by the Chief.
    Mr. Pearce. Chomping at the bit.
    Mr. Barker. Yes, sir, that is technology that would impact, 
you know, drug smuggling severely. In fact, if you look at New 
Mexico, and especially in the Deming area, we have camera 
sites. And unfortunately, the cost of the cameras, it's pretty 
high.
    Mr. Pearce. How high is the cost, just roughly.
    Mr. Barker. I think it's somewhere in the range of 200,000.
    Mr. Pearce. Per camera.
    Mr. Barker. Half a million per pole.
    Mr. Pearce. Half a million.
    Mr. Barker. Yes, sir. And the reason it's that expensive, 
you have two cameras per pole, 2 days, 2 nights looking in each 
direction. But I think if you get an opportunity to go to the 
Deming station, or even El Paso, you'll see the effectiveness 
of these cameras. And, in fact, what it does, it channels the 
traffic in locations where they think the camera cannot see.
    We are in the process of getting further deployment. I 
think there are 16 additional sites that were scheduled for 
2004 and we understand that they're going to come early 2005.
    Mr. Pearce. How many of those would it take to cover the 
entire border, from Texas to--just roughly.
    Mr. Barker. Geez. I think we have sites in New Mexico--I 
think in this sector, I think we have----
    Mr. Pearce. How far can they see? Just basically, how far 
can a camera see.
    Mr. Barker. Somewhere between mile and a half, 2 miles.
    Mr. Pearce. OK. So every 4 miles, you'd have to have one, 
at the extreme.
    Mr. Barker. Yes.
    Mr. Pearce. Mr. Swingle, what's your operating budget for 
133 aircraft.
    Mr. Swingle. Actually, I'm not certain. That's a national 
level thing. I'm not exactly sure what our budget is. I can get 
the answer for you, though.
    Mr. Pearce. What kind of aircraft do you fly.
    Mr. Swingle. We operate civilian type jets, corporate jets, 
citation jets, UH-60 Black Hawk.
    Mr. Pearce. If you've got 133 of them, each a couple 
thousand dollars, how many hours do you fly a month in your 
fleet.
    Mr. Swingle. In our area of responsibility here, 
approximately 300 hours.
    Mr. Pearce. How many.
    Mr. Swingle. 300 hours.
    Mr. Pearce. Per aircraft.
    Mr. Swingle. Not per aircraft.
    Mr. Pearce. How many aircraft do you have assigned to you.
    Mr. Swingle. In Albuquerque we have five aircraft. And in 
El Paso we have five as well.
    Mr. Pearce. You get about 10 aircraft, you get about 30 
hours per month per aircraft? Runs about $5 million, that 
Citation that you're flying.
    Mr. Swingle. When we equip them, probably a little more 
than that.
    Mr. Pearce. Sure. So you're looking at the operational cost 
of a couple of thousand dollars per hour for 300 hours. 133 
aircraft flying up and down, we should be able to have somebody 
over the border all the time over every inch of the border. Why 
do we still have the problems that we do.
    Mr. Swingle. Well, we do a significant amount of patrol. 
One of the problems that we have now is our commitment to 
Washington, DC, for airspace security. That's kind of tapped 
the resources, both in the Albuquerque and El Paso office, 
which are sister offices of each other.
    Mr. Pearce. How many aircraft do you have flying in 
Washington.
    Mr. Swingle. Well, more important than the aircraft are the 
crews. We have at any one time two UH-60 Black Hawks and two 
Citations that are stationed in Washington, DC. The problem is 
the personnel that we take from this area to man those 
aircraft. When we send them up there, we send them for an 8 or 
9-day rotation, but with days off at the beginning, days off at 
the end of that.
    Mr. Pearce. Is one philosophy to use your people rather 
than military people to fly combat air patrol over the capitol? 
Seems like the function would be more military when you're 
trying to defend the perimeter. And if we're cutting down, if 
we're taking away resources and parking aircraft on the ground 
because crews are somewhere else, it just----
    Mr. Swingle. Right. Well, we do carry one unique thing with 
us that the military doesn't have, and that's the law 
enforcement authority. And when these aircraft are kind of 
escorted out of that secure airspace, then there needs to be 
some sort of action taken on the ground when they land. And the 
military does not have that capability.
    Mr. Pearce. It would be interesting if you could get me 
that 133 aircraft and what it costs to fly them per year, both 
in operational cost and then in purchase cost.
    Mr. Swingle. Yes.
    Mr. Pearce. Because myself, I'm not sure if you'd be as 
effective as these motion detectors set up and down the 
corridor.
    Mr. Swingle. We do a completely different mission. I mean, 
we're a multi-role unit, the Air and Marine Program. I mean, we 
don't just detect and interdict people that are walking across 
the border, or driving across. We still have our Air and Marine 
interdiction mission, which is one of our core----
    Mr. Pearce. The testimony here today, Cates, is that the 
increase of drug trafficking and the increase of illegal 
activities is going up. And at some point we have to ask if our 
primary mission is actually--I'm not directing this at you, 
it's far different from your role--but somewhere we need to 
start asking if what we're doing is effective and if we should 
change what we're doing. And then what we would change.
    My last question, Mr. Chairman, would be, if any one of you 
can tell me about where the total combined operational costs 
were 10 years ago versus today in the total amount of narcotics 
that--I don't guess you can measure what gets through, but just 
narcotics and illegal activity that's interdicted. How much 
more resources are we spending 10 years later versus what we 
were 10 years ago, and how much more effective is it? Can you 
give me a read on that, any one of you?
    Mr. Chavez. If I may, I can attempt to answer that 
question.
    Mr. Pearce. OK.
    Mr. Chavez. For the amount of money that's given to law 
enforcement, it has not kept up with the amount of drugs that 
have been coming into the United States, particularly for New 
Mexico. We know that the cartel leaders are funneling their 
narcotics through New Mexico. It creates a bigger problem for 
us in the State.
    But if you compare that to the budget that the traffickers 
have, we're far, far behind, since they are dealing with 
billions of dollars and we in law enforcement try to do our 
work in the millions of dollars.
    So to get an accurate count, it would be practically 
impossible. To get a true reading of what's happening in 
different States throughout the Southwest Border would be 
impossible. We have to look at it from the bigger picture, look 
at who the cartel leaders are, how big is their organization, 
and how much control they have in smuggling their narcotics 
into the United States.
    A general statement would be that law enforcement is far 
behind when dealing with cartel leaders that control Mexico, 
control the narcotics.
    Mr. Pearce. Mr. Chairman, I will ask one more question. If 
we're going to adopt a policy that would succeed, do any of you 
have a recommendation? Because I think we can definitely say 
that the policies that we have right now are falling further 
and further behind. And if we're going to take some strategic 
step that would really ratchet up our effectiveness, what would 
it be.
    You seem to be chomping at the bit again.
    Mr. Barker. Because I also wanted to say something about 
the question that you asked previously about sensors, and then 
I'll come back to the last one.
    The motion detectors, you can say we have some of that 
right now, because we've got sensors arrayed on the border. I 
think we have, like, 900 sensors, which is nowhere close to 
what we should have right now. The only problem with a motion 
detector is it tells you that there has been an event. It 
doesn't tell you exactly what you have. So an animal can go 
across it and it would prompt a response. And that's one of the 
issues that we have with sensors.
    In fact, I was looking at the figures. We have monthly an 
average of somewhere between 40,000 and 50,000 tickets, events, 
that these agents have to respond to because of sensor 
activity. What we are looking for as an agency is integrating 
sensors and cameras, which is the ISIS system that started 
that. If we're going to have motion detectors, they're going to 
have to be integrated with something else to tell us it is a 
legitimate hit or something we should not worry about.
    So we do have that technology in the sense, right now, with 
our sensors. And if we do that, we need to make sure that--or 
else we're going to have agents responding to things that don't 
deserve a response.
    Mr. Pearce. OK. Thank you, Mr. Chairman.
    Mr. Souder. My understanding from staff is that Air 
Division is $257 million? Let me do a brief comment on Mr. 
Pearce's last question, and then that sets up--I want to do a 
couple more followup on how we collect the data.
    Part of the problem, which you all know, is drug funding. 
Like I mentioned with missing children or other things, we go 
through fads. In Congress, in 1992, 1995, 70 percent of the 
interdiction budget was cut by the last president. And to get 
back to where we were in 1992, we'd have to take a 50 percent 
reduction in drug use. So it isn't like there's a straight line 
to track. It went down like that. Drug use soared, then we 
worked the last 2 years--3 years.
    We have had 3 years of 5 percent reduction. In the last 2 
years of President Clinton, when they reorganized, we had some 
reduction. We wiped out about half of what went up under 
Clinton. But it's going like this, is our problem, because when 
it reaches crisis stage, Congress runs toward it. But, unless 
we have a stable approach--and one of our problems on the 
Southwest Border, much like any other--which we're having in 
Iraq, too, by the way--is that when you secure one zone, you 
put all that money into one zone, then you've got to maintain 
that and move to the next zone.
    And what's happening is in places like Sells, Arizona, 
where they're running through the Barry Goldwater in the 
cactus, and east of Douglas and in New Mexico. And in parks 
like Big Bend National Park, where the testimony is, it's 
overrun. Padre Island, where we haven't had traditional 
protection to the same rate. It funnels into those gaps.
    At Sells, Arizona, while we were holding one of these 
hearings, they had 1500 pounds of marijuana the previous year, 
they had 1500 in the first 3 months of 2003, and during our 
hearing they picked up about 1700 pounds. It's just kept trying 
to run. Even though we had the whole law enforcement agency one 
load of 500, one of 300, one at 400, one at 500 right there. 
And it just became a question of how many people are you going 
to stop? Because it was just pouring through. Now, we have 
those same fears in this part of the border.
    Now, Mr. Swingle, I just want to make sure, you testified 
about TARS. We know we've given you a difficult task, because 
in addition to trying to stop an almost unmanageable flow of 
illegal immigrants, because we don't have a work permit system 
that reflects the demand for work force in the United States, 
therefore, you have all these people pouring through, mostly 
for jobs, who have jobs already in the United States to some 
degree, and therefore it's an unmanageable flow coming across 
the border that's unseparated.
    So you have that immigration question, which is sensors, 
our flow and everything. And then the TARS, which are the 
aerostats, are supposed to be able to catch the planes, low-
flying planes that are coming in. Because if we are successful, 
which we are, but if we are successful in sealing more parts of 
the border, then they're going to find gaps around it, 
particularly if you're a drug dealer smuggling Arab terrorists 
apart and unless we have some systems that can also catch low-
flying aircraft underneath it. Are there any aerostats in New 
Mexico right now?
    Mr. Swingle. Yes, sir, in Deming. Actually, we have the 
southern land border pretty much covered, from Yuma, Arizona, 
to Laredo.
    Mr. Souder. And, yeah, the place that we were just at, in 
New Orleans, they said basically from Corpus Christi to New 
Orleans are basically----
    Mr. Swingle. I think Congress intended to pursue that and 
give us that radar net back in 1988 or so. But for some reason, 
that got kind of sidetracked.
    Mr. Souder. But they are working and functioning in this 
section of the border.
    Mr. Swingle. Yes, sir, they are. And Mr. Chairman, if I 
could, you hit a very pointed point, in that it seems like a 
lot of times that we do intend to kind of like chase rabbits. 
If they get up over here, this is where we go, and then kind of 
let our guard down with what we just stopped. And I, like Mr. 
Chavez, have been in narcotics enforcement for almost 30 years, 
and in New Mexico, and I've seen--it's very cyclic. And I've 
seen it come full circle many times.
    I think the approach is to keep the pressure on all facets 
of it. If we were to let the TAR program, for example, go 
tomorrow, the cartels and smuggling organizations are savvy 
enough and structured enough that they would just exploit that 
in a matter of seconds. I mean, it would take them 2 weeks to 
start exploiting that. So we have to keep our guard up at every 
area.
    Mr. Souder. Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman. You commented that 
Congress gets active as the problem reaches crisis stage, and I 
would say that, from Mr. Chavez's testimony, we've reached 
crisis stage. We've got two counties in New Mexico out of our 
33 No. 1 and two in the Nation per capita in overdose on heroin 
use. And for us, I think it's epidemic, and it's time for us to 
get some attention.
    Mr. Souder. Thank you. I want to ask a question. Are any of 
you familiar with this proposal that we heard at EPIC this 
morning, Border Interdiction Support Center? Have you seen this 
proposal circulating? That would be under DHS.
    Mr. Barker. Yes, sir.
    Mr. Souder. It's to be supported at EPIC.
    Mr. Barker. I've heard of it.
    Mr. Cates. We've heard of it.
    Mr. Souder. Mr. Barker, have you seen this.
    Mr. Pearce. No, sir.
    Mr. Barker. Mr. Cates.
    Mr. Cates. I haven't seen that document. I'm aware of the 
document.
    Mr. Souder. Have you inputted into the program proposal 
your agency.
    Mr. Cates. No.
    Mr. Souder. Mr. Chavez.
    Mr. Chavez. Likewise, I'm aware of the program, but I did 
not have any input into the design of the program.
    Mr. Souder. Mr. Garcia.
    Mr. Garcia. Ditto.
    Mr. Souder. Mr. Gonzalez.
    Mr. Gonzalez. I haven't seen that, but I am aware.
    Mr. Souder. Mr. Swingle.
    Mr. Swingle. I have not seen it.
    Mr. Souder. This is a proposed fusion center for the 
Southwest Border that would be under DHS, and it would pull 
together working groups to try to coordinate Southwest Border 
information.
    Now, my first question would be is, Mr. Chavez, if you've 
seen this, how does this differ from what the HIDTAs are trying 
to do and what the national drug czar is trying to do?
    Mr. Chavez. I believe that program is structured for an 
interdiction program, similar to Operation Cobija. And, as I 
understand, all intelligence and operations of law enforcement 
along the border would be coordinated through that center to 
fuse the intelligence that is obtained from interdiction 
programs.
    The HIDTAs are involved also in investigations; so, 
therefore, interdiction is just a part of HIDTA, but in 
investigations where we focus on the major traffickers, the 
cartel leaders, and further hold people accountable for what 
they're doing so that we have an impact along the border. It 
takes it a step further than what this program is designed to 
do, as I understand it.
    Mr. Souder. How do you see that as being different from 
what EPIC does now?
    Mr. Chavez. Well, within the State of New Mexico, the HIDTA 
Investigative Support Center takes into account all of the 
investigative activities from the task forces and is clearly 
focused on New Mexico, but does share its intelligence outside 
of the State so that it can expand on the investigations.
    I hate to take it a step further, but I think there needs 
to be better coordination with EPIC with everybody along the 
Southwest Border.
    Mr. Souder. Well, what gets confusing to us, and what's 
scary is, I spend more time with this, and I'm confused, and my 
staff is a little confused. I mean, we're not completely 
confused as what we see is the Riverside Center tracking the 
track. And they have certain functions. We see EPIC there, you 
said in your testimony, which I agree with.
    Director Waldridge is trying to figure out how to get 
everything connected. There's a proposal here for another 
subagency. You have drug intelligence centers in Johnstown, PA, 
which interprets the data. We have the Laughlin, the local 
agency, to tap into. And you start to get the feeling that 
we're probably spending about, I don't know, sometimes 25 
percent of our time calling up to the different agencies and 
swapping information, when, theoretically, we ought to be 
integrated enough that you can tap in and get the information 
without having to go five different places, or input into five 
different places.
    Mr. Chavez. That's correct. And from the HIDTA, that is 
exactly what we're trying to do, through the Investigative 
Support Center, is bring all of the Federal agencies into the 
center with their data, their base, and so, therefore, we can 
access all of that data and focus on our problem, or our 
program.
    Mr. Souder. Mr. Gonzalez.
    Mr. Gonzalez. I just want to make an observation. Of all 
the centers that you mentioned, EPIC was the first one. All the 
others came afterward.
    Mr. Souder. Yeah. In trying to sort this through, one of 
the advantages at this particular moment in time, and why we're 
trying to plunge into this very aggressively, is that when 
narcotics are the No. 1 focus, then everybody goes after 
narcotics money. But right now, Homeland Security is the No. 1 
focus, so every agency, even in EPIC--what they said this 
morning is, 40 percent of their inquiries were terrorist 
inquiries from the Coast Guard at EPIC, which is supposed to be 
the Drug Intelligence Center.
    And those of us who work with narcotics want to make sure 
that there's some kind of firewall that's here, where we're 
going to focus on drugs, and additionally is going to focus on 
Homeland Security and terrorism. There are certain overlaps, 
because the terrorist groups are funded by narcotic moneys. And 
that's going to increase. And the groups are getting more and 
more integrated as we look around. And every agent in the 
country needs to understand that. But, as FBI moves more toward 
other roles than narcotics and DEA emerges with that, clearly 
we have merged a whole bunch of agencies inside the Department 
of Homeland Security.
    In narcotics, there are basically two major players on the 
table right now, and has fused a lot more players than we had 
before. So when we look at these different agencies, in my 
opinion, there shouldn't be a proliferation of new things. What 
we ought to be able to do is to figure out how to hammer the 
existing ones we have together, or the rule that when a new 
one's added, two go out. We don't have a bunch of money, extra 
money, to throw at this, when we're having all sorts of holes 
on the border, questions on how your agencies are going to be 
able to obtain and bring new people in. And payroll questions 
are nearly overwhelming the system.
    Do any of you want to add anything, comments?
    Mr. Gonzalez. If I may, I think it speaks to the 
effectiveness of EPIC as to how it's being used after September 
11. That should send a signal that, rather than bring on new 
centers, that maybe what needs to be done is maybe expand EPIC, 
or something along those lines.
    Mr. Souder. Terrorism separated out. Mr. Swingle, could you 
tell me a little bit what Air and Marine is looking at doing on 
the New Mexico border from your Albuquerque center?
    Mr. Swingle. Yes, Mr. Chairman. We continue to conduct our 
patrols with UH-60's along the border, and our C-550 
interceptor tracker jets.
    But I believe, if I'm not mistaken, you're going to be 
briefed this afternoon after this hearing on one of the new 
initiatives that we have that we've discovered a way to exploit 
some of this smuggling to identify and exploit some smuggling 
rings. As I understand, it's at least a sensitive, if not a 
classified issue. But I believe you're being briefed on it 
after this hearing.
    Mr. Souder. Are you proposing to move your headquarters to 
the border? What is the reason for that?
    Mr. Swingle. Of course, that is a national issue, and I 
believe that there is a move afoot to do that, to bring it back 
to the border. It was here at one time.
    Mr. Souder. Why would you propose to do that?
    Mr. Swingle. I suppose to get our reactionary time to the 
border back down. But one would have to understand the purpose 
of its move in the first place to see that. I did see that 
cycle.
    Mr. Souder. And what----
    Mr. Swingle. Well, before the aerostats, quite frankly we 
relied on the FAA radar in this area to detect targets. And, as 
you know, before the aerostats there was a true air threat that 
was real. And as a State police narcotics agent, air smuggling 
investigator, we made at least one or two cases a week. That's 
how rampant it was.
    The radar environment was such, though, that we could not 
detect these targets as they crossed the border until they were 
many, many miles north of the border. So the El Paso Air Branch 
at that time was always playing a catch-up game, if you will. 
They were always having to chase the target, as opposed to 
being able to come down from the north and intercept it.
    There was a decision made to move the office up there, 
which at the time was a very viable option and a good idea. 
They did essentially the same thing in San Angelo and San 
Antonio, moved the branch further north. But then shortly 
thereafter, the aerostats came, and that changed the entire 
complexion.
    Mr. Souder. So now the planes are flying down from 
Albuquerque to the border.
    Mr. Swingle. We have a Citation stationed here, but, 
because of our lack of staffing, we can't man them 7-by-24. So, 
between the two offices, we crew our aircraft.
    Mr. Souder. Let me yield to Mr. Pearce. Let me ask one 
other question on the record, on the unmanned aerial vehicles. 
The Senate Appropriations Subcommittee of Homeland Security has 
recommended that money be appropriated to the Border Patrol and 
Customs to develop unmanned aerial vehicles.
    So that would be Mr. Cates. Is that who would have that? 
Mr. Barker. It's my understanding that, even though you're both 
in the Department of Homeland Security, your vehicles aren't 
the same. Is there a reason for that?
    Mr. Barker. We talking about aircraft.
    Mr. Souder. Unmanned, UAVs.
    Mr. Barker. They are new to us, and right now they're 
deployed in Tucson. And it is something that Director Ridge has 
made a commitment to. And we think it's a pretty good addition 
to our air operations to have the UAVs.
    Mr. Souder. Why are we paying for development of two 
systems? Do we know of any reason?
    Mr. Barker. I'm not aware.
    Mr. Swingle. And I'm not certain at all. We do have some of 
my colleagues from Tucson, Arizona that are going to brief you 
on the UAV program, since it's operated out of Arizona. To be 
honest about it, I'm not up to speed on it.
    Mr. Souder. The Coast Guard is developing one as well, so 
we'll followup. We're having a Washington hearing in about 2 
weeks. We'll followup on that question. But, just so you know, 
at our level we're getting increasingly concerned in what we 
want to know. And we'll come back to you at some point and say, 
``Look, is there an operational reason for this? Is your 
function different than their function? It's different than the 
Coast Guard, but can't you have one basic model that might have 
some alterations? Do we really need to fund,'' quite frankly, 
maybe at the congressional level.
    I'm not saying it's not. Three centers have companies in 
their districts that are developing these different things. But 
we don't have time for this stuff anymore in this country, or 
the money to do it when we're short in grassroots things, and 
then we're winding up in the same department. Put Coast Guard, 
Air and Marine on board, probably, then, all in the same 
department, all developing similar type programs. We saw this 
also on the FAST pass systems, which is getting much better 
organized now that DHS is in one agency.
    Mr. Pearce.
    Mr. Pearce. Mr. Chairman, I would ask anyone on the panel, 
as we're looking at alternatives, again to look and watch the 
border all the time, how much would it cost to use low-altitude 
radar capabilities? In other words, that would be far more 
effective, and I think you could cover a broader scope, you 
wouldn't have to have as many sites for low-altitude radar. It 
wouldn't measure the driving traffic. But in some of the remote 
areas, it might pick up some of those targets. But any comments 
about that.
    Mr. Barker. A comment from the Border Patrol perspective. 
Our mission is on the ground. How that would affect our mission 
is unknown to me, because we would have to be able to see 
things that are on the ground. Cameras, those are some of the 
things that would be of interest and benefit to us, because, 
you know, most of the things that we're going to be dealing 
with are on the ground.
    Mr. Pearce. Mr. Chairman, I would just recommend that we 
ask that question, too. Rather than airborne aircraft to pick 
up the tracks of other aircraft, I think if you look at the 
$257 million it takes annually to run 133 aircraft, that you 
can put in a lot of radar, low-altitude radar for that, and at 
least find your targets as they're crossing the border, and 
probably can pick up the targets back into Mexico as you're 
crossing that. Thank you.
    Mr. Souder. Thank you. With that, the first panel is 
dismissed. And thank you all for your work. And if you'll thank 
all the people working in your agencies and daily take risks 
for the rest of us, we appreciate it.
    Two of our witnesses on the next panel have submitted their 
testimony because things have come up. So we have Captain 
Richard Williams, Commander of District 4, Las Cruces, New 
Mexico State Police; and Sheriff Juan Hernandez of the Dona Ana 
County Sheriff's Office. Earlier I butchered that county name, 
but I think most people here knew where I was talking about. 
Just remain standing I'll swear you in.
    Subcommittee stands in recess for 5 minutes.
    [Recess.]
    Mr. Souder. We'll reconvene the subcommittee. 
Subcommittee's reconvened. Back to order, whatever the correct 
terminology is. Captain Williams and Sheriff Hernandez, if 
you'll raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Thank you. Let the record show both responded 
in the affirmative. I don't think we've ever held a hearing 
where we looked at the Federal issues without trying to talk to 
our State and local people, figure out how this integrates.
    After we've heard your testimony we'll have some questions 
for you, so Captain Williams, if you'll start.

 STATEMENTS OF CAPTAIN RICHARD WILLIAMS, COMMANDER, DISTRICT 4 
    (LAS CRUCES), NEW MEXICO STATE POLICE; AND SHERIFF JUAN 
          HERNANDEZ, DONA ANA COUNTY SHERIFF'S OFFICE

    Captain Williams. My name is Richard Williams, W-I-L-L-I-A-
M-S, I'm the district commander for the New Mexico State Police 
here in Las Cruces. I would like to thank you for the 
opportunity of testifying before you today, Mr. Chairman and 
this committee.
    On behalf of New Mexico Governor Bill Richardson, 
Department of Public Safety Secretary John Denko, and New 
Mexico State Police Chief Carlos Maldonado, I would like to 
convey our appreciation for the Federal support and leadership 
provided by New Mexico Congressman Pearce regarding this issue.
    Allow me first to discuss the nature of the problem. The 
Southwest Border continues to be a focal point for narcotics 
smuggling operations. Albuquerque, Las Cruces, El Paso, TX, and 
many other communities in New Mexico, have seen an increase in 
drug smuggling operations as this region of the country is a 
primary shipment point for drug trafficking organizations.
    Contributing to the security problems are the inadequate 
barrier or fencing systems which physically keep offenders and 
vehicles from entering our country. Of the 180 miles of 
international border of New Mexico, approximately 160 are not 
properly fenced or protected. Additionally, there is a lack of 
surveillance, monitoring technology, deployed along the border. 
Even if the technology was in place, there is a lack of 
sufficient law enforcement personnel and resources to respond 
to incursionsites rapidly.
    In 2000, New Mexico ranked 36th in population, yet third in 
the crime index. A contributing factor to this disparity is the 
abuse and trafficking of narcotics, along with the associated 
crimes most commonly linked to illegal narcotics.
    It is well documented that drug trafficking organizations 
utilize the three ports of entry in New Mexico and the vast 
geographical land area to bring vehicles and people across into 
the United States carrying illegal drugs or undocumented 
aliens.
    The alarming reality is that other criminal organizations 
can utilize the same tactics as the drug smugglers to bring 
across terrorists who are willing and waiting to attack our 
country. The entire Southwest region is at risk due to unsecure 
nature and enormous geographical area to be protected. The task 
of securing our international border is monumental, and cannot 
be undertaken by one agency alone.
    There are thousands of miles of highways in the State near 
the Mexican border. New Mexico has three major interstate 
highways traveling through the State that lead to numerous 
destinations throughout the entire country.
    The impact of drug-related and/or violent crime in New 
Mexico has many aspects. Like the criminal drug trafficking 
groups from South America that preceded them, organized crime 
syndicates in New Mexico are extremely violent and routinely 
employ intimidation and violence while conducting drug 
transactions in New Mexico. There have been numerous incidents 
that illustrate the ruthlessness of these organizations. Much 
of the drug-related brutality that has become commonplace in 
Mexico has spilled over to communities within our State.
    Allow me to quickly discuss some of the methods of 
operations used by drug smugglers. Backpacking is a common 
method utilized by drug trafficking organizations along the 
international border. A significant concern is that these 
offenders are walking through rough terrain, quite often in 
extreme heat with limited supplies of food and water.
    A very recent concern is drugs like ephedra, which was 
recently banned in the United States, are given to these 
backpackers to enhance their performance as they journey across 
the border into the United States. Backpacking smuggling 
operations are just one method of transportation, and law 
enforcement throughout the entire Southwest Border is still 
interdicting narcotics shipments and commercial vehicles, 
private vehicles, buses, airplanes, trains, and through the 
postal and shipping industries.
    Let me discuss some of the law enforcement's response to 
drug trafficking problems in New Mexico. The State of New 
Mexico has developed a statewide coordinated strategy utilizing 
seven regional task forces to combat violations of the Federal 
and State Controlled Substance Act.
    Each one of the regional task forces experience drug-
related and social problems unique to their area of 
responsibility. The New Mexico State Police Narcotics Section 
is an active member in each of the regional task forces and 
assists the regions with resources and personnel on a statewide 
level.
    The New Mexico State Police Uniform Bureau and the New 
Mexico Motor Transportation Division diligently work 
interdiction operations on a statewide level, and participate 
in Operation Cobija. In Spanish, the word ``cobija'' translates 
to blanket, and this operational name symbolizes the extensive 
amount of resources deployed during operational periods.
    On the local level, communication and coordination between 
the Federal, State and local law enforcement is exceptional, 
primarily due to the coordination of the regional task force 
concept.
    The New Mexico State Police Narcotics Section conducts 
undercover operations that generally start at the local and 
State level, and pursues the investigation to the regional and 
international level. Many of the undercover cases are 
eventually developed into Federal cases, as they are adopted by 
our Federal partners and prosecuted in Federal court.
    Coordination is the key to successful management of case 
operations, and the New Mexico Investigative Support Center is 
crucial to all law enforcement operations throughout the entire 
Southwest Border. The services provided by the Investigative 
Support Center are immeasurable and provide law enforcement 
officers with critical information that facilitates furthering 
the investigation to the source of supply level.
    It is apparent that the U.S./Mexico border is an area of 
concern for all law enforcement agencies in New Mexico and 
Texas. The lack of resources, communication technology, 
surveillance technology and barrier systems all contribute to 
the problem. As California and Arizona take monumental steps to 
secure their portion of the border, New Mexico and Texas cannot 
be overlooked.
    Mr. Chairman, I would like to conclude my testimony to this 
committee by quoting a retired New Mexico State Police sergeant 
on his assessment of the struggle regarding narcotics 
trafficking. He said, The problems associated with narcotics 
trafficking and the response of law enforcement is like rushing 
the gates of hell with a few fire extinguishers and a water 
hose. We just don't have enough personnel and resources to 
impact this enormous problem. I'd like to thank you for the 
opportunity to testify before you today.
    [The prepared statement of Captain Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T7998.040
    
    [GRAPHIC] [TIFF OMITTED] T7998.041
    
    [GRAPHIC] [TIFF OMITTED] T7998.042
    
    [GRAPHIC] [TIFF OMITTED] T7998.043
    
    [GRAPHIC] [TIFF OMITTED] T7998.044
    
    [GRAPHIC] [TIFF OMITTED] T7998.045
    
    [GRAPHIC] [TIFF OMITTED] T7998.046
    
    [GRAPHIC] [TIFF OMITTED] T7998.047
    
    [GRAPHIC] [TIFF OMITTED] T7998.048
    
    [GRAPHIC] [TIFF OMITTED] T7998.049
    
    [GRAPHIC] [TIFF OMITTED] T7998.050
    
    Mr. Souder. Thank you for your testimony.
    Sheriff Hernandez.
    Sheriff Hernandez. Chairman, thank you, and Congressman 
Pearce, thank you for being here, and also for inviting us to 
here to speak to you-all today. Like Captain Williams and 
everybody else has been telling you today, I mean, definitely, 
there's a shortage of manpower here along the border for us and 
stuff.
    Another problem we encounter is, like with my agency along 
the border here, our radio communication systems, there are 
areas along the border down there where our radios won't even 
work at all. We definitely need to get some more equipment that 
will help us along the border.
    My agency, we do have an excellent working relationship 
with State Police. Also with Customs, Border Patrol, and DEA 
and the FBI. You know, I do have personnel assigned to DEA. I'm 
getting ready to give the FBI Task Force two more, and I also 
have two assigned to the U.S. Customs Task Force, also, which, 
you know, they do work issues with drugs and related issues, 
and stuff like that.
    Just this year alone, I do have four canine units, and--
well, actually, five, because I still work with mine. I still 
get out there and work every once in a while with mine. We do 
have canine units out there doing drug interdiction. So far 
this year we have taken down over 4,000 pounds of dope here in 
Dona Ana County itself, and a lot of that is turned over either 
to DEA or Customs so that, you know, they can develop some 
information from them. And a lot of them will do controlled 
deliveries. Some have been going up to New York and Chicago, 
you know.
    But, actually, the Federal agencies, we also need a lot 
more equipment here, like to do the wire taps and stuff like 
that, also to help out. The Intelligence Center here in Las 
Cruces, actually, is more supportive of the local law 
enforcement projects than what we get from EPIC there in El 
Paso, really. We get more information from them here than we do 
from EPIC over in El Paso.
    And Customs, for instance, you know, with their aircrafts, 
I mean, they've always been very cooperative with me. I've even 
had their home phone numbers and stuff, to where we need a 
helicopter in the air to work something along the border, or 
even do a surveillance and take aerial photographs of some 
homes that are doing meth labs and all that, and all I call 
them, and 15 minutes later they'll call me back, ``OK, we're 
taking off. We'll meet you at the airport here in Las Cruces.'' 
They'll pick us up and we'll show them where we need the 
photographs, or they'll track some subjects for us.
    And I would like for them to get more support from the 
Federal Government so they can buy a few more of the A-Star 
helicopters, because those are the ones that have really been 
the most helpful here to us, because, you know, they fly at a 
certain height where you can't even hear them on the ground. 
And then with a flare camera and everything else, I mean, it's 
really helped us out a lot on getting us information, you know, 
that we need to get when we're going to be doing some 
operations and stuff, going after some dope dealers or going 
into some homes that are being utilized making meth, and stuff 
like that.
    We also, you know, have an excellent working relationship 
with Border Patrol, you know. We have done a lot of operations 
with them along the border, and then also along the east mesa 
over here. I do have some of my deputies, also, in ATVs and 
stuff. And along with Border Patrol's ATVers, too, we've done 
some operations along the border so we can start taking care of 
some of the issues.
    It's just going to get worse now, like everybody's saying, 
with the operations going on in Arizona, to where, you know, 
definitely the use of more personnel is going to be needed down 
here. And that's it.
    Mr. Souder. Thank you for your testimony. Can I ask you a 
couple of questions, Sheriff, about Dona Ana County? Does that 
county cover the whole New Mexico/Mexico border?
    Sheriff Hernandez. No, sir, Luna County and Hidalgo County 
cover the western part over there, also.
    Mr. Souder. So is Santa Teresa in your country?
    Sheriff Hernandez. Yes, sir, Santa Teresa is in my county. 
And we have been helping Customs out there also, at the Santa 
Teresa port of entry. I have been assigning my personnel to 
help them out, also, on inspecting vehicles and, you know, 
coming across.
    Mr. Souder. How many people live in your county?
    Sheriff Hernandez. Pardon me.
    Mr. Souder. How many people live in your county?
    Sheriff Hernandez. We have well over 180,000.
    Mr. Souder. So is Las Cruces in the county, also? So it 
goes from where to where?
    Sheriff Hernandez. It goes all the way from Las Cruces 
north.
    Mr. Souder. Even farther north, then.
    Sheriff Hernandez. Yes, sir. It's 50 miles north of here, 
still.
    Mr. Souder. And the counties to your west, they're the ones 
that border Arizona, then.
    Sheriff Hernandez. Well, Hidalgo County borders Arizona, 
and Luna County is between Dona Ana and Hidalgo County.
    Mr. Souder. In those counties, I assume there's a lot less 
population, and they don't have as many local sheriff resources 
to tackle it. Do you help them? What is your relationship with 
them?
    Sheriff Hernandez. Yes, sir, I was going to bring that up. 
See, they're pretty short on personnel. Also, those counties 
are, well, pretty poor also, so they don't have enough 
personnel. So what I have done is, I got with the sheriffs from 
not only Hidalgo County and Luna County, but also Otero County, 
which is a county over here to the east of us, and we signed 
that Memorandum of Understanding to where we have cross-
deputized all of our people.
    So that if my guys are along the border over there and, 
say, Border Patrol runs into some problems there at Luna County 
and they're requesting assistance, Luna County doesn't have the 
personnel to send them, then my guys can just go ahead and 
respond without us having to go through all of the procedure of 
them having to contact the sheriff in Luna County, then him 
having to contact me, and then giving them the authorization 
for them to go.
    So with the Memorandum of Understanding that we have now on 
cross-deputizing everybody, it's like, you know, Border Patrol 
or Customs or whoever, State Police might call us, you know, 
also, and my guys can just go ahead and go into the next county 
and assist them with whatever is going on.
    Mr. Souder. You said you had two of your officers currently 
in the FBI Task Force. Is that a particular case type thing, or 
is it a category like certain types of crimes, or is it 
tracking a certain group?
    Sheriff Hernandez. The FBI is looking at, you know, certain 
things and everything else. DEA, they handle the narcotics 
stuff. And Customs, they do a lot of the narcotics, also. The 
ones that I have assigned to those task forces.
    Mr. Souder. So you have two with the Customs Task Force. Is 
that correct?
    Sheriff Hernandez. Yes, sir.
    Mr. Souder. And two with FBI?
    Sheriff Hernandez. Yes.
    Mr. Souder. And you've got some with DEA, too?
    Sheriff Hernandez. I have three with DEA. I've got two 
regular deputies, and then also one canine officer assigned to 
them over there, also.
    Mr. Souder. And the two with Customs, are they doing 
narcotics as well?
    Sheriff Hernandez. Yes, sir.
    Mr. Souder. With the State Police, with Captain Williams, 
how far does your zone go north?
    Captain Williams. My area is District 4, and it encompasses 
all of Dona Ana County, a very small portion of Otero County, 
which is in the Chaparral County, which is a small little 
community. And then also we take parts of Sierra County, about 
5 miles into Sierra County. And that's primarily our area. It's 
about 4,500 miles.
    Mr. Souder. So the State Police are split at the border as 
well? You have a different district that takes you west?
    Captain Williams. Yes, there's another district to the west 
of us, and that's Captain King's district, and he's seated 
right here.
    Mr. Souder. And are the two of you integrated.
    Captain Williams. Yes. It's kind of interesting. If you'll 
give me a few minutes, let me tell you. What we have is, we 
have a uniformed bureau, narcotics section and criminal 
section. Each one of the uniformed bureau is broken down into 
12 districts throughout the entire State. We work with District 
12, which is the Deming area. And then, of course, there's a 
Las Cruces area, we're District 4. And then on the other side 
of us is the Alamogordo area, which is another district in and 
of itself. So we have the uniform responsibilities, so we have 
the responsibility of investigating car crashes, handling 
domestic violence. And we also help out with some of the border 
operations and some of the interdiction operations throughout 
the State.
    We also have units that are specialized, though, and that's 
the Criminal Investigations Unit that handles major felony type 
homicides and major felony cases.
    We have a Narcotics Bureau here as well, and the narcotics 
section is based--there's a portion here out of Las Cruces. And 
we have agents assigned to a DEA Task Force. We also have 
agents assigned to the local Regional Task Force. And then we 
also have agents that work regular primary New Mexico State 
Police cases as well.
    Mr. Souder. I'm going to yield to Congressman Pearce for 
some questions, and I'll come back.
    Mr. Pearce. Thank you.
    Captain Williams, on the Cobijas, that's where you pretty 
well would interdict a lot more things than you would on a 
regular routine day-to-day basis. Is that correct?
    Captain Williams. We really try to enhance our enforcement 
operations during the operational periods, and really try and 
saturate the area with saturation patrols.
    Mr. Pearce. So you would interdict more things than normal?
    Captain Williams. That's the attempt, yes, sir.
    Mr. Pearce. Do you do any forecast out of that, of how much 
is actually getting through on your best estimates using the 
maximum that you interdict in a Cobija?
    Captain Williams. What we've utilized to help us forecast 
this is the Investigative Support Center, and they've told us 
what some of the prime days are. Focus-based on that 
intelligence. As far as tracking, the statistical data that we 
gather from them, we do enter all that information with the 
Investigative Support Center. What we'll do is, our narcotics 
agents aren't even allowed to draw a case number unless they've 
already contacted the Investigative Support Center and notified 
them as to what they're doing.
    Mr. Pearce. So, based on the interdictions during these 
high-intensity periods, how many narcotics get through every 
day that we don't interdict, and low periods of low activity?
    Captain Williams. I think that would be very difficult to 
measure, because there are some times where we're very 
successful at interdicting narcotics, and there's days where 
we're out there and we're stopping a lot of vehicles and we're 
writing a lot of tickets, but we don't get anything. So I think 
that would be very difficult to measure, as to what gets 
through and what we don't get.
    Mr. Pearce. What's the extreme difference between a regular 
intensity day and a Cobija?
    Captain Williams. What we'll generally do, as far as 
manpower.
    Mr. Pearce. No, as far as the interdiction. I'm just trying 
to get some feel to what gets through that we don't interdict 
on a daily basis.
    Captain Williams. You know, I don't have the exact numbers.
    Mr. Pearce. Just approximately.
    Captain Williams. What comes through? I would imagine that 
we may interdict 5 percent of what comes through.
    Mr. Pearce. OK. That gives me closer than any number I 
could get. I appreciate that, and I understand that it's really 
a rough guess.
    Sheriff Hernandez, you know, we met with law enforcement 
officials way back last year, and I got a letter shortly after 
that from one of the sheriffs, I think, in Hidalgo County, and 
he was saying that the people were becoming more brazen. They 
pull them over and threaten them, ``If you keep trying to do 
your job, we're just going to rub you out.''
    If there were one thing we could do from this committee to 
change the threats and the risk that you face out of here on 
the local level, what would that thing be?
    Sheriff Hernandez. Well, you know, probably if you could 
change the laws, as far as us being able to enforce immigration 
laws. That would probably help us out, you know. Because right 
now, basically, you know, we run across illegal immigrants or 
something, we have to bother the Border Patrol for them to come 
and take care of them and stuff, you know.
    Mr. Pearce. OK.
    Mr. Souder. Has that ever been looked at.
    Mr. Pearce. I'm not sure. We've had the question about 
using law enforcement officers anywhere or picking up or 
detaining illegal immigrants, and that's been, I think, 
routinely rejected. But I'm not sure what the status is.
    Sheriff Hernandez. Just the other night, Congressman, I had 
two of my canine guys on State Road 9 along the border, and 
they spotted a vehicle coming across, you know, through the 
desert out there. When they tried to pull it over, they got 
into a pursuit, but they did put out the stop stick, flattened 
the tires. It turned out it was a vehicle full of illegal 
aliens that were being smuggled across the border. It's another 
thing that we are encountering down there on that highway quite 
a bit.
    Mr. Pearce. And for either one of you, when Federal border 
law enforcement officials, any of the ones on the panel 
previously, get information from you-all about local illegal 
activity, how long does it take them to respond? In other 
words, you call them for help, for their assistance, how long 
does it take them to actually get involved?
    Sheriff Hernandez. The Border Patrol?
    Mr. Pearce. Any one of them, Customs, Border Patrol, any of 
them.
    Sheriff Hernandez. It doesn't really take them really long, 
because one thing we have done, Congressman Pearce, they have 
our radio frequencies, and not only in their units, but also in 
the aircraft, to where we can just go ahead and directly follow 
them. And they also monitor us. And one thing I like about 
Customs and Border Patrol, they see my guys on a traffic stop 
and whatever, they'll hover right over the top of them with the 
helicopter, you know. They'll shine the lights on them and 
stuff to make sure everything is OK.
    Mr. Pearce. Do either of you have any requests or 
suggestions as far as the coordination between State, local and 
Federal border enforcement officials? Is there something that 
we could do that would enhance that, or assist you in any way.
    Captain Williams. Can I answer that? I would imagine that 
the Investigative Support Center is a very good tool. I would 
like to see that, personally, enhanced. Our officers have been 
able to use that for deconfliction purposes. And in addition to 
that, we also see information intelligence sharing bulletins 
that they give to us quite frequently, and that helps us 
enhance our enforcement operations. And we know it gives us 
recent trends and gives us knowledge on what's going on in the 
current drug organization. So it's been very helpful.
    Mr. Pearce. That's all my questions, Mr. Chairman. I 
appreciate the opportunity.
    Sheriff Hernandez. I concur with Captain Williams there, 
Congressman. Like I said, from our local Intelligence Center 
here, it's like I was telling you earlier, we get more 
cooperation from them than we do from EPIC over in El Paso. A 
day doesn't go by that I do not get, you know, information from 
our center here as far as, you know, certain things to be on 
the lookout for and stuff and officer safety issues and stuff 
like that, you know.
    And we also get information from them here as to what sort 
of consignment methods these drug smugglers are using nowadays 
and everything else. So it has really been very beneficial to 
us out here.
    Mr. Souder. Captain Williams, did you say that the other 
superintendent, or the other person from the State is here as 
well?
    Captain Williams. Yes.
    Mr. Souder. Can you come forward? I need to swear you in. 
Will you state and spell your name for the record?
    Mr. Keene. Richard Keene, R-I-C-H-A-R-D, K-E-E-N-E.
    [Witness sworn.]
    Mr. Souder. Again, you represent the whole section, right?
    Captain Williams. Yes, the whole section of the border.
    Mr. Souder. And you are the one----
    Sheriff Hernandez. I'm in the middle.
    Mr. Souder. I asked a question at the Department of 
Homeland Security, and DHS responded that it was true and gave 
a little bit more detail. I wonder whether any of you are 
familiar with this and how it's coordinated and what we can do 
to address this question? There are packages that are sold to 
immigrant groups that range from $4,000 to $15,000, currently 
more like $8,000 to $15,000. In 7 days you're guaranteed entry 
into the United States or you get all your money back. There is 
a section in New Mexico that it is $40,000 for an Arab to get 
in. And that's testified under oath by the Department of 
Homeland Security. Are you familiar with that?
    Captain Williams. I'm not familiar with that, no, sir.
    Mr. Keene. No, sir.
    Sheriff Hernandez. I'm not, either.
    Mr. Keene. I haven't heard about that.
    Mr. Souder. Never heard of that at all.
    Mr. Keene. No.
    Mr. Souder. Have you been involved in any cases or seen 
where Middle Eastern immigrants have come across your border in 
New Mexico?
    Captain Williams. We have not interdicted any cases where 
there's Middle Eastern immigrants coming across, no, sir. We 
have interdicted cases, though, where there's undocumented 
aliens from Mexico coming across, but nothing from the Arab 
countries.
    Mr. Souder. It's not your primary responsibility, it's the 
Border Patrol's primary responsibility, but we have a hole in 
our system if for $40,000 anybody from the Middle East can get 
in or get their money back. And you're partly the hole. And the 
fact that it's on the record, it's something that's been known 
for some time, but I'm not sure precisely where it is. We 
wouldn't want to announce exactly, although if we announce it, 
we can moderate it.
    Mr. Pearce. Just following up with that, I guess Captain 
Keene, we've had information in discussion with the officials 
that run the hospital in Luna County at Deming, and they tell 
us that, routinely, there will be--Federal law requires that if 
we have an immigrant come to the border, present themselves 
with a medical condition of any kind, the local hospital or 
local county has to pick them up at the border and transport 
them to the nearest facility that does what they need. If they 
need heart surgery, they go to Denver or Albuquerque or 
whatever.
    And we're understanding that more and more people are 
asking for that medical assistance and getting in the planes, 
being transported somewhere, and they're getting out and 
running the last two or three blocks; they've got somebody 
waiting to pick them up. So they're using our own system 
against us. Have you encountered cases like that and feel it is 
as persistent as the Deming hospital tells us it is?
    Mr. Keene. Congressman, I've been in Deming since 1995, and 
I have seen and heard of that going on.
    Mr. Pearce. Thank you, Mr. Chairman.
    Mr. Souder. When you pick up somebody on a narcotics 
charge, either State Police or local, does that go on--and let 
me just say up front, I'm basically more moderate on 
immigration questions. I favor legal work. I actually favor 
amnesty to a certain degree, which is very controversial. I get 
flak in my district. Nevertheless, we have to have control of 
our border or we're not safe, and we need to figure out how to 
have immigration laws that are workable. But then we have to 
enforce the laws that we have. And one of the ways you abuse 
your rights, whether you're an illegal or a legal, is if you 
bring in narcotics.
    When you make an arrest for somebody on narcotics, does 
that get into our system so that it shows up when they get 
picked up again? Basically we have testimony--we also have 
jurisdiction over the Justice Department--that last year, 
that--and we had it again in Washington from Mr. Aguilar, and 
from east, that I think they said in El Paso--trying to 
remember--do you remember what the number was? I think it was 
14 times somebody has to be picked up before they're held in El 
Paso, if it's 14 times. But if they have a drug charge, you 
assume that it would be different than if you would just be 
picked up and released. But part of the question is, when you 
pick somebody up on a drug charge, does that get into the 
system?
    Captain Williams. Generally what we do with interdiction 
cases, it depends on the size of the case and whether it meets 
the threshold or not. If it's a smaller amount, we will 
typically handle that at the State level with State Police 
narcotics agents. That information is turned over to the 
Investigative Support Center. And my understanding is that they 
are the ones who share that information with the Federal 
agencies.
    If it is a larger amount of narcotics, generally we try and 
turn that over to the Federal agencies, DEA or someone like 
that, to adopt the case and prosecute it federally. And that 
information is as well turned over to the Investigative Support 
Center.
    So we put a lot of faith in the Investigative Support 
Center to disseminate intelligence for us, and all seizure data 
and arrest data is handed over to the ISC.
    Mr. Souder. We had testimony, again this morning, that 
illegals are--we do a good job of checking when we pick them up 
whether they have a criminal record, although apparently 
breaking immigration laws isn't considered a criminal record. 
But the question is, what level are the drug laws? What if it's 
a misdemeanor, felony, dealing? And how does that get into the 
record as far as detaining?
    Captain Williams. I don't believe you're going to see very 
much of a record for misdemeanor type offense. Now, the 
majority of the backpacking type operations, to just use those, 
those are the majority of the felony weights, anyway. So those 
are large enough to be dealt with.
    Mr. Souder. Do you have a ballpark guideline? Because we 
had testimony in El Paso that it takes a major load, their 
prison's full, they don't prosecute. How are your prisons? Are 
they full and is that impacting who you pick up?
    Captain Williams. That's not impacting on who we pick up. I 
mean, if we come across a load, we're going to pick it up 
regardless of what's going on in the prisons system.
    Mr. Souder. Even knowing that they wouldn't prosecute?
    Captain Williams. We'll push--every load we get, we try and 
get that prosecuted. Generally our District Attorney's office, 
our local District Attorney's office, works very well with us 
on prosecuting these cases. Now, that doesn't mean, though, 
that they won't try and plea bargain it or come up with a 
different solution afterwards. But we do send everybody in for 
prosecution.
    There would be one exception, and that would be if we were 
trying to further the investigation or to take the 
investigation to the next level, we may hold prosecution at 
that point. But for the majority of the cases they are 
prosecuted, yes, sir.
    Mr. Souder. Sheriff Hernandez, how full is your jail?
    Sheriff Hernandez. We have quite a few inmates there, yes. 
But one thing I was going to tell you, Mr. Chairman, is that, 
like last year, I did bring in the U.S. Consulate down here 
to--and we gave our deputies a training as far as what the 
immigration laws are and what we were required to do as far as, 
say we did pick up somebody, you know, doing something illegal 
here in the United States. And, you know, we've been following 
those guidelines and stuff, the laws that are set, you know the 
U.S. Consulate told us we had to follow and stuff as far as, 
you know, having to notify. Like if, you know, we arrest them, 
we have to actually give them the opportunity to--ask them, 
``Do you want us to notify your Mexican Consulate or not?'' You 
know, if they tell us no, then we don't. But if they say yes, 
of course we have to notify the Mexican Consulate that we have 
picked them up.
    Mr. Souder. It's one of our measures to try and figure out, 
when we squeeze one area, where is it moving? And I don't mean 
when I was asking questions--are your jails full is one way you 
tell whether it's moved, whether an area has been flooded, and 
whether or not they have nowhere to put people and whether the 
prosecutors will prosecute them.
    And it's suggested the focus is still, it's so easy to get 
across at El Paso they haven't quite hit the desert as hard as 
going across El Paso, because their jail's full. And they 
testified twice that they don't basically go after anybody 
under 200 pounds. 200 pounds is a big load, so that means it's 
easy enough to run through there, that they aren't putting as 
much pressure. But, the reason I ask the question about the 
Middle Eastern immigration, is suggesting the more isolated 
areas we may have, in effect, bigger loads moving through or 
terrorist groups moving through, because it's much harder to 
find them.
    Now, you mentioned, of course, Sheriff Hernandez, that you 
had two ATV vehicles.
    Sheriff Hernandez. No, I've got more than that.
    Mr. Souder. OK. Two that are dedicated for----
    Sheriff Hernandez. No, we deal with some ATV operations 
with Border Patrol along the border.
    Mr. Souder. OK. And did you get those through a Federal 
grant? Do we assist in the border with that kind of equipment? 
Because we have all kinds of equipment.
    Sheriff Hernandez. No, sir, actually, we might call it 
Federal funds, because it was actually moneys that I gathered 
from seized assets from these dope dealers that we were busting 
and everything else, and then selling, you know, their vehicles 
that were given to us by the Federal Government.
    Mr. Souder. I see.
    Captain Williams. If I can, Mr. Chairman, my understanding 
is, the New Mexico State Police Narcotics Section has just 
purchased, I believe it's three or four ATVs, and they were 
purchased through Federal funds. I believe it was through 
HIDTA. And those are going to be used for interdiction 
operations along the border as well.
    Mr. Souder. I just want to make sure it's flexible enough 
for different areas to accommodate that.
    Do you have any additional questions?
    Mr. Pearce. No questions, but I would like to make some 
closing comments when you arrive at that point.
    Mr. Souder. Well, thank you all for your work. Clearly, 
we're watching very closely, because when we push one area--and 
clearly, as we push Arizona more, we're watching New Mexico 
very closely, in addition to huge gaps in the Texas area. 
Because focus has been more California and Arizona for the last 
few years. And continue to work through Congressman Pearce and 
others, your senators, to gain attention to make sure it's 
there. I know they've been active in the Senate side as well, 
and we thank you for your efforts in your local law enforcement 
and taking the risks that you described in your testimony.
    Sheriff Hernandez.
    Sheriff Hernandez. Well, one thing I was going to say, Mr. 
Chairman, is that if you-all would really support our 
Intelligence Center here, we would really appreciate it, 
because, like I said, we do get a lot of information from them, 
and it's really been helpful to us.
    Mr. Souder. That's the HIDTA Intelligence Center.
    Sheriff Hernandez. Yes, sir, uh-huh.
    Mr. Souder. And you don't have a RISS program here where 
you put--are you part of a RISS--you know, R-I-S-S network? Are 
you part of that?
    Sheriff Hernandez. I believe the Intel Center is.
    Mr. Souder. So that feeds into the HIDTA center.
    Captain Williams. Right.
    Mr. Souder. One of the major functions, and why we funded 
the HIDTAs, is to have them coordinate. And most are 
increasingly putting in an Intelligence Center that then 
interacts with EPIC. As you can hear from the first panel, 
we're having a little bit of discussion as we get this 
proliferation of these agencies on how many we need, does each 
agency need their own, which ones work. HIDTA was supposed to 
be an interaction between Federal, State and local, and that's 
its purpose. Now, it may interact with EPIC and RISS as opposed 
to you then directly interacting with EPIC and RISS. But we 
need to make sure garbage in, garbage out. Getting information 
in and out.
    Southwest Border HIDTA, in particular, is--we have tried to 
make even further adjustments in the latest DCP, Drug Czar's 
Office, because the Southwest Border, as you mentioned, has 60 
percent, which may be low, as far as the drugs went.
    Let me ask one other question. Any of you know anything 
about the heroin up in Santa Fe? Is that Colombian heroin or 
Mexican heroin?
    Captain Williams. My understanding, that was Mexican 
heroin.
    Sheriff Hernandez. Mexican heroin.
    Mr. Souder. And how many deaths are we talking there, do 
you know?
    Captain Williams. One year when I worked narcotics up 
there, they had 26, I believe, in Rio Arriba County, and that 
was in a year span. That's been a few years back, so I don't 
have recent statistics, but that's quite a significant amount, 
because that county itself is not populated.
    Mr. Souder. Seattle has more, but, I mean, Seattle's a lot 
bigger, and it's not that many more.
    Captain Williams. I tell you what, Rio Arriba County has 
had some significant problems with their heroin problems, and 
they've taken steps in local law enforcement and at Federal and 
State law enforcement to attack that problem through undercover 
operations. And it just continually seems to stay there and 
fester in that area.
    Mr. Souder. One other question. We just did a meth hearing 
over in Arkansas, and while you're having the growth, Arkansas 
is having an absolute explosion, as we are. I think we're up in 
the 1400 labs, versus 29 just a few years ago.
    And we had written testimony from the HIDTA director that 
showed clearly that the most potent stuff is Mexican, and 
California superlab stuff coming in. But at the local police 
level, Sheriff Hernandez, have you had any local lab cleanups 
that you've had to deal with?
    Sheriff Hernandez. When we have meth lab stuff like that, 
we turn it over to the State Police, because they have a meth 
lab unit and stuff. So they go ahead and take care of that for 
us.
    Mr. Souder. Because you have a meth lab--is it----
    Captain Williams. Statewide unit.
    Mr. Souder. How long did it take? How long are your 
officers at the scene?
    Sheriff Hernandez. Usually when we go after a meth lab, 
see, we already know that it's there, so we already have the 
warrant and everything else to go hit that residence and stuff. 
And the State Police is notified already before that. So they 
are already responding there with us.
    Mr. Souder. At this point you have roughly the number of 
lab cleanups you need to be able to handle the flow so that you 
don't have--in Arkansas we were hearing 8 hours until the lab 
could get there.
    Captain Williams. What it's also doing, going out in a 
proactive manner. So they may already be there when they're 
getting ready to start the cleanup. And they may have been the 
ones who interdicted, along with the local police and the local 
sheriffs.
    One of the things that we have, though, is we have had, and 
maybe it's not an explosion, but we have had a significant 
increase in our meth lab operations here in New Mexico as an 
entire State.
    Mr. Souder. Crippled your local police department is what 
happened, because it takes so many people. The cost of cleaning 
up if it's a small methamphetamine lab, total, are only 8 
percent of our national problem, and even in the big States 
where it's exploding, it's not the majority of the drug 
problem. But the problem is it's like 90 to 100 percent of the 
local law enforcement problem and the State Police, because it 
takes so long to clean them up and prosecution.
    And we heard from prosecuting attorneys how it takes, even 
just to try, the prosecuting attorneys take twice as long to 
prosecute the cases, that labs trying to identify the stuff 
have to have more chemicals to try to prove what it is. It is a 
much harder process, although it's not the major drug problem, 
it is an exploding problem. If we ever do control the border, 
we're going to wind up producing more meth.
    Captain Williams. Sure. One of the things that's most 
alarming about methamphetamine is what it does to the 
individual, the person who's hooked on it, because they can go 
four, 5 days without sleeping. They can be high anxiety. They 
can become extremely nervous and paranoid to that point. And, 
actually, I brought it up in my written statement. We've even 
had law enforcement officers killed by people who were what we 
call tweaking, where they've been up for several hours and they 
were highly anxious and they're panicking.
    So that's the most scary part to us as local law 
enforcement, along with all the other concerns, including the 
environment and the property values and what it does to a 
neighborhood and things like that.
    Mr. Souder. Have you seen it in Albuquerque and the bigger 
cities?
    Captain Williams. We're seeing it just about everywhere in 
the State.
    Mr. Souder. Well, thank you all for your testimony. I yield 
to Mr. Pearce.
    Mr. Pearce. In closing, I, of course, would like to thank 
the city of Las Cruces and Mayor Bill Mattiace for having us in 
the facility here.
    And as far as some of the things that have come up, Mr. 
Chairman, if we're going to look at the border expansion of 
Santa Teresa and expanding the capabilities, maybe moving part 
of the El Paso Field Office functions out there, like has been 
discussed, I would be very supportive of that. I feel like that 
border could be used to handle much more traffic and stop some 
of the congestion that we're finding right there in the middle 
of El Paso. Possibly give us a better chance to look at more of 
the packages coming across.
    As far as the UAVs, we've got some of the research 
occurring here in Las Cruces. Of course, we would like to 
accommodate anything that we can do there.
    My office has secured funding for airport expansion at 
Santa Teresa. We feel like, if the branch of Air and Marine 
activities decided to relocate there, that some of the 
expansions that we're causing to occur would give it even 
greater capability and it would be a more suitable spot, and 
certainly provide more access and quicker access to the border.
    So, after listening to the testimony today, I would 
encourage any of those things that you can oversee or cause to 
happen, that we would move that to the next step and see if 
it's actually plausible and feasible.
    So thank you, Mr. Chairman, again, for coming to the 
district and having a discussion that I think is extremely 
critical to all of New Mexicans, as well as all of America. 
Thank you.
    Mr. Souder. Well, thank you for your leadership. I look 
forward to working with you on those projects, because we're 
certainly going to be focusing increasingly on that section of 
the border that you have in your district.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 3:43 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T7998.051

                                 <all>

</pre></body></html>
